i
TABLE OF CONTENTS
A.

Opinion of the Washington Supreme Court, Yim
v. Seattle, No. 95813-1 (Yim I), filed Nov. 14,
2019....................................................... A-1–A-33

B.

Order Granting Plaintiffs’ Motion for Summary
Judgment and Denying Defendant’s Motion for
Summary Judgment, Yim v. Seattle (Yim I),
Superior Court of Washington in and for King
County, dated March 28, 2018............. B-1–B-11

C.

Opinion of the Washington Supreme Court, Yim
v. Seattle, No. 96817-9 (Yim II), filed Nov. 14,
2019....................................................... C-1–C-28

D.

Order of the Washington Supreme Court,
Amending Opinion in Yim v. Seattle, No. 968179 (Yim II), filed Jan. 9, 2020 ................... D-1–D-2

E.

Seattle Municipal Code Chapter 14.08.050 First-in-time ........................................... E-1–E-5

F.

Seattle Municipal Code Chapter 14.09 - Use of
Criminal Records in Housing (in relevant
part) .......................................................... F-1–F-2

G.

Stipulated Facts and Record, agreed Nov. 28,
2017, Yim v. Seattle (Yim I) .................... G-1–G-7

Appendix A-1

FILE
In Clerks Office
Supreme Court of Washington
Date NOV 14 2019
s/ Owens. J., for C.J.
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
CHONG and MARILYN YIM, )
KELLY LYLES, BETH,
)
NO. 95813-1
BYLUND, CNA APARTMENTS )
LLC, and EILEEN LLC,
)
Respondents,
)
v.
)
En Banc
THE CITY OF SEATTLE,
)
Appellant.
)
)Filed NOV 14 2019
YU, J.—This case concerns the constitutionality of
Seattle’s “first-in-time rule” (FIT rule), Seattle
Municipal Code (SMC) 14.08.050. Broadly speaking,
the FIT rule provides that Seattle landlords seeking
to fill vacant tenancies must provide notice of their
rental criteria, screen all completed applications in
chronological order, and offer tenancy to the first
qualified applicant, subject to certain exceptions. The
plaintiffs are Seattle landlords, who claim the FIT
rule facially violates their state constitutional rights.
On cross motions for summary judgment, the trial
court ruled that the FIT rule is unconstitutional on its
face because (1) the FIT rule facially effects a per se
regulatory taking for private use in violation of article

Appendix A-2
I, section 16, (2) the FIT rule facially infringes on the
plaintiffs’ substantive due process rights in violation
of article I, section 3, and (3) the FIT rule facially
infringes on the plaintiffs’ free speech rights in
violation of article I, section 5. Wash. Const. art. I, § §
16, 3, 5.
Defendant city of Seattle (City) appealed. We
granted direct review and now reverse.
FACTUAL AND PROCEDURAL BACKGROUND
In September 2014, Seattle’s mayor and the
Seattle City Council appointed a committee “to
evaluate potential strategies to make Seattle more
affordable, equitable, and inclusive.” Clerk’s Papers
(CP) at 319. The committee recommended “a multiprong approach of bold and innovative solutions.” Id.
After considering the committee’s recommendations,
the Seattle City Council amended Seattle’s Open
Housing Ordinance, ch. 14.08 SMC. These
amendments included adoption of the FIT rule.
The FIT rule provides that when a Seattle property
owner seeks to fill a tenancy, the owner must first
“provide notice to a prospective occupant” of “the
criteria the owner will use to screen prospective
occupants and the minimum threshold for each
criterion,” as well as “all information, documentation,
and other submissions necessary for the owner to
conduct screening.” SMC 14.08.050(A)(1)(a)-(b). Next,
the property owner must “note the date and time of
when the owner receives a completed rental
application”
and
“screen
completed
rental
applications in chronological order.” Id. at (A)(2)-(3).
“If, after conducting the screening, the owner needs
more information than was stated in the notice,” the

Appendix A-3
owner must “notify the prospective occupant in
writing, by phone, or in person of what additional
information is needed.” Id. at (A)(3). Finally, the
property owner must “offer tenancy of the available
unit to the first prospective occupant meeting all the
screening criteria necessary for approval of the
application.” Id. at (A)(4). The first qualified applicant
has 48 hours in which to accept the offer of tenancy.
Id. If the applicant does not accept, “the owner shall
review the next completed rental application in
chronological order until a prospective occupant
accepts the owner’s offer of tenancy.” Id.
There are a number of exceptions to these general
procedures. No part of the FIT rule applies “to an
accessory dwelling unit or detached accessory
dwelling unit wherein the owner or person entitled to
possession thereof maintains a permanent residence,
home or abode on the same lot.” Id. at (F). In addition,
an owner does not have to offer tenancy to the first
qualified applicant if the owner “is legally obligated
to” or “voluntarily agrees to set aside the available
unit to serve specific vulnerable populations.” Id. at
(A)(4)(a)-(b). The FIT rule also contains procedures for
potential occupants with disabilities to seek
“additional time to submit a complete rental
application because of the need to ensure meaningful
access to the application.” Id. at (B).
The FIT rule became effective on January 1, 2017,
although compliance was not required until July 1,
2017. Id. at (A), (E). On August 16, 2017, the plaintiffs
filed a first amended complaint, “seeking a
declaration that the City’s [FIT] rule . . . violates the
Takings, Due Process, and Free Speech Clauses of the
Washington State Constitution, and also seeking a

Appendix A-4
permanent injunction forbidding the City from
enforcing its unconstitutional rule.” CP at 19. The
plaintiffs challenge the FIT rule only “on its face,” not
as applied. Id. at 30, 33.
The parties filed cross motions for summary
judgment based on a statement of stipulated facts and
a stipulated record. The trial court ruled in favor of
the plaintiffs on each of their claims, concluding that
the FIT rule facially violates article I, section 16 (the
takings clause), section 3 (the due process clause), and
section 5 (the free speech clause) of the Washington
State Constitution. The City appealed, and we
granted direct review. Order, No. 95813-1 (Wash.
Nov. 28, 2018).
ISSUES
A. Does the FIT rule facially effect a regulatory
taking for purposes of article I, section 16?
B. If the FIT rule does facially effect a regulatory
taking, is it for private use in violation of article I,
section 16?
C. Does the FIT rule facially violate the plaintiffs’
article I, section 3 right to substantive due process?
D. Does the FIT rule facially violate the plaintiffs’
article I, section 5 right to free speech?
ANALYSIS
This case presents two important questions of
state constitutional law that will have consequences
far beyond the particular claims at issue here. First,
we must define when a law regulating the use of
property crosses the line into a “regulatory taking” for
purposes of article I, section 16. Second, we must
determine the standard of review that applies to

Appendix A-5
article I, section 3 substantive due process challenges
to laws regulating the use of property.
As to the first issue, this court has always
attempted to define regulatory takings consistently
with federal courts applying the takings clause of the
Fifth Amendment. U.S. Const. amend. V. The federal
definition of regulatory takings has been substantially
clarified since we last considered the issue, such that
the “legal underpinnings of our precedent have
changed or disappeared altogether.” W.G. Clark
Constr. Co. v. Pac. Nw. Reg’l Council of Carpenters,
180 Wn.2d 54, 66, 322 P.3d 1207 (2014). It has not
been shown that we should adopt a Washingtonspecific definition as a matter of independent state
law at this time, and we therefore adopt the definition
of regulatory takings set forth by the United States
Supreme Court in Lingle v. Chevron U.S.A. Inc., 544
U.S. 528, 125 S. Ct. 2074, 161 L. Ed. 2d 876 (2005), as
discussed in more detail below. The following
precedent is disavowed to the extent that it defines
regulatory takings in a manner that is inconsistent
with Chevron U.S.A.: Orion Corp. v. State, 109 Wn.2d
621, 747 P.2d 1062 (1987); Presbytery of Seattle v.
King County, 114 Wn.2d 320, 787 P.2d 907 (1990);
Sintra, Inc. v. City of Seattle, 119 Wn.2d 1, 829 P.2d
765 (1992); Robinson v. City of Seattle, 119 Wn.2d 34,
830 P.2d 318 (1992); Guimont v. Clarke, 121 Wn.2d
586, 854 P.2d 1 (1993); Margola Associates v. City of
Seattle, 121 Wn.2d 625, 854 P.2d 23 (1993); and
Manufactured Housing Communities of Washington
v. State, 142 Wn.2d 347, 13 P.3d 183 (2000) (plurality
opinion).
Regarding the second issue, as analyzed in more
detail in our opinion for Chong Yim v. City of Seattle,

Appendix A-6
No. 96817-9 (Wash. Nov. 14, 2019) (Yim II), this court
has always attempted to apply a standard of review to
article I, section 3 substantive due process claims that
is consistent with the standard used by federal courts
applying the due process clauses of the Fifth and
Fourteenth Amendments to the United States
Constitution. As with defining regulatory takings, it
has not been shown that we should depart from
federal law at this time, and we therefore apply
rational basis review to the plaintiffs’ substantive due
process challenge to the FIT rule.
Turning to the specific claims presented in this
case, the constitutionality of the FIT rule is a question
of law reviewed de novo. Amunrud v. Ed. of Appeals,
158 Wn.2d 208, 215, 143 P.3d 571 (2006). The
plaintiffs’ facial takings and substantive due process
claims cannot succeed unless the plaintiffs show that
“no set of circumstances exists in which [the FIT rule],
as currently written, can be constitutionally applied.”
City of Redmond v. Moore, 151 Wn.2d 664, 669, 91
P.3d 875 (2004). They cannot meet that burden on the
record presented, while the City has met its burden of
justifying the FIT rule for purposes of the plaintiffs’
facial free speech claim. We therefore reverse and
remand with instructions to grant the City’s motion
for summary judgment.
A. The FIT rule does not facially effect a regulatory
taking
The takings clause of the Fifth Amendment
provides, “[N]or shall private property be taken for
public use, without just compensation.” U.S. Const.
amend. V. Likewise, article I, section 16 provides, “No
private property shall be taken or damaged for public
or private use without just compensation having been

Appendix A-7
first made.” Wash. Const. art. I, § 16. Both the federal
and state takings clauses allow for “[c]laims of inverse
condemnation by excessive regulation,” otherwise
known as “regulatory takings” claims. Orion Corp.,
109 Wn.2d at 642.
Regulatory takings claims are based on the
premise that “while property may be regulated to a
certain extent, if regulation goes too far it will be
recognized as a taking.” Pa. Coal Co. v. Mahon, 260
U.S. 393, 415, 43 S. Ct. 158, 67 L. Ed. 322 (1922).
When a regulation goes too far, it becomes “a de facto
exercise of eminent domain,” even though the private
individual still actually owns and possesses the
property. Orion Corp., 109 Wn.2d at 645. Such
regulatory takings, like traditional exercises of
eminent domain, require either just compensation (if
the property is taken for public use) or invalidation of
the law (if the property is taken for private use). Mfd.
Hous., 142 Wn.2d at 362.
Regulatory takings may be either “per se” or
“partial.” A per se regulatory taking is found where a
regulation’s impact is necessarily so onerous that the
regulation’s mere existence is, “from the landowner’s
point of view, the equivalent of a physical
appropriation.” Lucas v. S.C. Coastal Council, 505
U.S. 1003, 1017, 112 S. Ct. 2886, 120 L. Ed. 2d 798
(1992). As a matter of federal law, such categorical
treatment is appropriate for only “two relatively
narrow categories” of regulations-regulations that
“require[ ] an owner to suffer a permanent physical
invasion of her property” and “regulations that
completely deprive an owner of ‘all economically
beneficial us[e]’ of her property.” Chevron U.S.A., 544
U.S. at 538 (second alteration in original) (quoting

Appendix A-8
Lucas, 505 U.S. at 1019). 1 All other regulations are
susceptible of partial regulatory takings claims, which
federal courts decide based on a multifactor test (the
Penn Central factors) applied on a case-by-case basis.
Id. at 538-39 (citing Penn Cent. Transp. Co. v. New
York City, 438 U.S. 104, 124, 98 S. Ct. 2646, 57 L. Ed.
2d 631 (1978)).
The plaintiffs here claim the FIT rule facially
effects a per se regulatory taking, but they do not
contend that it fits into either of the per se categories
recognized by federal courts. Instead, they contend
that Washington courts recognize another category of
per se regulatory takings, which includes any
regulation that “destroys one or more of the
fundamental attributes of ownership (the right to
possess, exclude others and to dispose of property).”
Mfd. Hous., 142 Wn.2d at 355. The plaintiffs argue
that the FIT rule falls into this per se category
“because it strips landlords of a fundamental attribute
of property ownership—the right to choose to whom
one will rent their property.” Resp’ts’ Br. at 1.
We now clarify that none of our regulatory takings
cases have purported to define regulatory takings
(either per se or partial) as a matter of independent
state law. Instead, we have always attempted to
discern and apply the federal definition of regulatory
1 There is another form of takings cases not relevant here that
deals with “adjudicative land-use exactions-specifically,
government demands that a landowner dedicate an easement
allowing public access to her property as a condition of obtaining
a development permit.” Chevron U.S.A., 544 U.S. at 546 (citing
Dolan v. City of Tigard, 512 U.S. 374, 379-80, 114 S. Ct. 2309,
129 L. Ed. 2d 304 (1994); Nollan v. Cal. Coastal Comm’n, 483
U.S. 825, 828, 107 S. Ct. 3141, 97 L. Ed. 2d 677 (1987)).

Appendix A-9
takings. Since we last attempted to do so, the federal
definition has been clarified substantially and is now
clearly inconsistent with the definitions set forth in
our precedent. Thus, the legal underpinnings of our
precedent have disappeared, and it has not been
shown that we should now adopt a Washington
specific definition of regulatory takings as a matter of
independent state law.
Therefore, we disavow our precedent, adopt the
federal definition of regulatory takings, and hold that
the plaintiffs cannot show the FIT rule facially meets
this definition on the record presented. We express no
opinion as to whether the FIT rule effects a regulatory
taking as applied to any particular property.
1. We have never defined regulatory takings as a
matter of independent state law
The plaintiffs emphasize that their takings claim
is based on the Washington State Constitution and
contend that “[t]he federal approach to takings
therefore does not offer a relevant comparison because
this Court can interpret its own state constitution as
it sees fit-so long as its interpretation does not go
below the floor of protection guaranteed by the
Federal Constitution.” Id. at 20-21. It is certainly true
that we have the authority to interpret article I,
section 16 independently of the Fifth Amendment’s
takings clause. However, it is incorrect to suggest that
we have already done so for purposes of defining
regulatory takings. To the contrary, for over 30 years,
we have attempted to define regulatory takings in a
manner that is consistent with federal law.
Unfortunately, for many years, federal regulatory
takings cases were complex and occasionally
inconsistent, making our task extremely challenging

Appendix A-10
and giving the inaccurate impression that this court
was attempting to set forth a Washington-specific
doctrine based on independent state law.
a. Our pre-Manufactured Housing cases did not
define regulatory takings based on independent state
law
Although we have never defined regulatory
takings based on independent state law, our
precedent may appear to have done so. See, e.g.,
Laurel Park Cmty., LLC v. City of Tumwater, 698 F.3d
1180, 1191-93 (9th Cir. 2012) (analyzing state
regulatory takings claim separately from federal
regulatory takings claim); Lemire v. Dep’t of Ecology,
178 Wn.2d 227, 242, 309 P.3d 395 (2013) (“The parties
and amici strenuously debate the framework on which
this court should rest a taking analysis, including
whether and to what extent our state constitutional
takings provision may offer greater protection than its
federal counterpart.”); Roger D. Wynne, The Path out
of Washington’s Takings Quagmire: The Case for
Adopting the Federal Takings Analysis, 86 Wash. L.
Rev. 125, 136 (2011) (pointing to “three unique
elements” of Washington takings law). Regrettably,
this court has added to the confusion by occasionally
characterizing our cases as setting forth a “state
‘regulatory takings’ doctrine.” Robinson, 119 Wn.2d at
47. We resolve this confusion now.
The reason our precedent appears unusual is
because this court was attempting to set forth “a
doctrinally consistent, definitive test” for regulatory
takings, which “has proved an elusive goal, sometimes
characterized as ‘the lawyer’s equivalent of the
physicist’s hunt for the quark.’” Orion Corp., 109
Wn.2d at 645 (internal quotation marks omitted)

Appendix A-11
(quoting Williamson County Reg’l Planning Comm’n
v. Hamilton Bank, 473 U.S. 172, 199 n.17, 105 S. Ct.
3108, 87 L. Ed. 2d 126 (1985), overruled in part by
Knick v. Township of Scott, 588 U.S. _, 139 S. Ct. 2162,
204 L. Ed. 2d 558 (2019)). It should not be surprising
that our pursuit of such an elusive goal left this court
as something of an outlier.
However, our attempts to articulate a test for
when regulations cross the line into regulatory
takings have always attempted to achieve consistency
with federal law, not to set forth an independent state
law doctrine.
Achieving consistency with federal regulatory
takings law proved difficult due to “unresolved
tensions between divergent lines of authority.” Id.
Even though the United States Supreme Court held
in 1922 that a police power regulation becomes a
taking if it goes too far, the United States Supreme
Court (and this court, following its lead) continued to
state that “an exercise of the police power protective
of the public health, safety, or welfare cannot be a
taking requiring compensation.” Id. at 646 (emphasis
added) (citing Keystone Bituminous Coal Ass’n v.
DeBenedictis, 480 U.S. 470, 107 S. Ct. 1232, 94 L. Ed.
2d 472 (1987); Miller v. Schoene, 276 U.S. 272, 48 S.
Ct. 246, 72 L. Ed. 568 (1928); Mugler v. Kansas, 123
U.S. 623, 8 S. Ct. 273, 31 L. Ed. 205 (1897); Cougar
Bus. Owners Ass’n v. State, 97 Wn.2d 466, 647 P.2d
481 (1982); Markham Advert. Co. v. State, 73 Wn.2d
405, 427, 439 P.2d 248 (1968)). Thus, it appeared that
some regulations of private property were
categorically incapable of being regulatory takings,
but it was not clear which ones.

Appendix A-12
Moreover, regulatory takings cases suffered from a
“doctrinal blurring that has occurred between due
process and regulatory takings.” Id. at 647. Federal
and state cases held that “a police power action must
be reasonably necessary to serve a legitimate state
interest” to survive a substantive due process
challenge. Id. at 646-47 (citing Goldblatt v. Town of
Hempstead, 369 U.S. 590, 594-95, 82 S. Ct. 987, 8 L.
Ed. 2d 130 (1962); Lawton v. Steele, 152 U.S. 133, 137,
14 S. Ct. 499, 38 L. Ed. 385 (1894); W. Main Assocs. v.
City of Bellevue, 106 Wn.2d 47, 52, 720 P.2d 782
(1986); Cougar Bus. Owners, 97 Wn.2d at 476).
Meanwhile, “[a] regulatory taking also hinges on
whether the challenged regulation is ‘reasonably
necessary to the effectuation of a substantial public
purpose,’ or ‘does not substantially advance legitimate
state interests.’” Id. at 647 (citation omitted) (internal
quotation marks omitted) (quoting Penn Central, 438
U.S. at 127; Keystone, 480 U.S. at 485). It was thus
difficult to determine whether and to what extent
substantive due process principles were relevant to
the regulatory takings analysis.
As a result of such confusion, courts were left to
determine when a regulation crosses the line into a
regulatory taking based on “‘essentially ad hoc,
factual inquiries.’” Keystone, 480 U.S. at 495 (internal
quotation marks omitted) (quoting Kaiser Aetna v.
United States, 444 U.S. 164, 175, 100 S. Ct. 383, 62 L.
Ed. 2d 332 (1979)). In an effort to bring some
uniformity to the regulatory takings analysis, this
court “ventur[ed] where other courts had feared to go,
[and] began the painful process of developing coherent
legal doctrine to supplant vague or nonexistent
principles and intuitive determinations.” Richard L.
Settle, Regulatory Taking Doctrine in Washington:

Appendix A-13
Now You See It, Now You Don’t, 12 U. Puget Sound L.
Rev. 339, 341 (1989). After revising and clarifying our
analysis several times, we ultimately settled on the
following multistep test:

Margola, 121 Wn.2d at 643-46; Guimont, 121
Wn.2d at 598-604; see also Robinson, 119 Wn.2d 34;
Sintra, 119 Wn.2d 1; Presbytery, 114 Wn.2d 320;
Orion Corp., 109 Wn.2d 621. By the time we settled
on this framework in 1993, it had been suggested that
our test was “undermined by language in Lucas
questioning harm versus benefit analysis.” Guimont,
121 Wn.2d at 603 n.5. However, we declined to
address that issue because “it would be premature to

Appendix A-14
begin dismantling our takings framework, carefully
crafted in Presbytery, Sintra, and Robinson, without
more definitive guidance on this issue from the United
States Supreme Court.” Id.
While we continued to await more definitive
guidance, this court decided Manufactured Housing,
which forms the basis of the plaintiffs’ regulatory
takings claim in this case.
b. Manufactured Housing did not define regulatory
takings based on independent state law
Manufactured Housing’s lead opinion cited only
Presbytery to support its holding that a regulation is
“subject to a categorical ‘facial’ taking challenge”
when it “destroys one or more of the fundamental
attributes of ownership (the right to possess, exclude
others and to dispose of property).” 2 Mfd. Hous., 142
Wn.2d at 355. The plaintiffs and allied amici contend
that this category of per se regulatory takings is based
on independent state law and therefore cannot be
disavowed unless it is shown to be both incorrect and
harmful. We clarify that this category of per se
regulatory takings is not based on independent state
law.

The dissents challenged this holding as an incorrect application
of Presbytery. Mfd. Hous., 142 Wn.2d at 388 (Johnson, J.,
dissenting), 407-08 (Talmadge, J., dissenting). However, because
we hold that Manufactured Housing’s legal underpinnings have
disappeared, we assume without deciding that it correctly
applied Presbytery. We also assume without deciding that
Manufactured Housing’s lead opinion was joined by a majority of
the court on the issues relevant to this case and that the facts of
Manufactured Housing are not materially distinguishable from
the facts presented here.

2

Appendix A-15
Presbytery unambiguously applied “the ‘taking’
analysis used by the United States Supreme Court
and by this court,” drawing no distinction between the
two. 114 Wn.2d at 333 (emphasis added). Presbytery’s
approach was entirely consistent with our prior
explicit holding that “we will apply the federal
analysis to review all regulatory takings claims.”
Orion Corp., 109 Wn.2d at 658; see also Margola
Assocs., 121 Wn.2d at 642 n.6; Guimont, 121 Wn.2d at
604. Thus, by relying solely on Presbytery to define a
per se regulatory taking, Manufactured Housing
necessarily relied on federal law.
Furthermore, when applying its definition to the
facts presented, Manufactured Housing’s lead opinion
cited Presbytery again, along with other Washington
cases, federal cases, and cases from other states. Mfd.
Hous., 142 Wn.2d at 364-68. Thus, it is clear from the
range of authorities cited in Manufactured Housing’s
lead opinion that its definition of a per se regulatory
taking was not based on independent state law but on
an attempt to apply federal law and, perhaps, to
discern a national consensus.
It may appear that Manufactured Housing was
applying a Washington specific definition of
regulatory takings because the lead opinion included
a Gunwall 3 analysis. Id. at 356-61. However, the
Gunwall analysis was unrelated to the definition of
regulatory takings. Instead, “[w]hat is key is article I,
section 16’s absolute prohibition against taking
private property for private use.” Id. at 357.
The court therefore concluded that the
Washington State Constitution is more protective
3

State v. Gunwall, 106 Wn.2d 54, 61-62, 720 P.2d 808 (1986).

Appendix A-16
than the federal constitution on the basis “that
‘private use’ under amended article I, section 16 is
defined more literally than under the Fifth
Amendment, and that Washington’s interpretation of
‘public use’ has been more restrictive.” Id. at 361.
Nevertheless, the conclusion that article I, section 16
defines public and private use more protectively than
the federal constitution does not also establish that
article I, section 16 has a more protective definition of
regulatory takings. Those are two separate questions
implicating two different parts of the regulatory
takings analysis.
Regulatory takings cases involve a “remedial
question of how compensation is measured once a
regulatory taking is established” and “the quite
different and logically prior question whether the . . .
regulation at issue had in fact constituted a taking.”
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302, 328, 122 S. Ct. 1465,
152 L. Ed. 2d 517 (2002). The definition of a regulatory
taking goes only to the initial determination of
whether “‘property’ has actually been taken.” Mfd.
Hous., 142 Wn.2d at 363-64. Meanwhile, the
public/private use distinction goes only to the
appropriate remedy once a taking has been
established-compensation or invalidation. See id. at
362.
Thus, none of our cases, including Manufactured
Housing, defined regulatory takings based on
independent state law. Instead, we have always tried
to ascertain and apply a definition that is consistent
with federal law. Our regulatory takings cases appear
state-specific only because, for many years, the
federal definition was difficult to understand. The

Appendix A-17
United States Supreme Court has since provided
definitive guidance on that issue, which “[a]n
overwhelming majority of states” have followed.
Phillips v. Montgomery County, 442 S.W.3d 233, 240
(Tenn. 2014). We now do the same.
2. The legal underpinnings of our definition of
regulatory takings have disappeared
Because our prior definition of regulatory takings
was not based on independent state law, we need not
decide whether it is incorrect and harmful.
Instead, “we can reconsider our precedent not only
when it has been shown to be incorrect and harmful
but also when the legal underpinnings of our
precedent have changed or disappeared altogether.”
W.G. Clark, 180 Wn.2d at 66. We do so now because
two United States Supreme Court cases decided after
Manufactured Housing establish that the federal
legal underpinnings of our precedent have
disappeared, and it has not been shown that there is
a principled basis on which to depart from federal law
at this time.
First, in 2002, the United States Supreme Court
held that categorical rules are rarely appropriate in
regulatory takings cases. Tahoe-Sierra, 535 U.S. 302.
The regulations at issue in Tahoe-Sierra were two
temporary development moratoria “that, while in
effect, denie[d] a property owner all viable economic
use of her property.” Id. at 320 (emphasis added). A
number of property owners brought a facial takings
claim, arguing that the regulations “g[ave] rise to an
unqualified constitutional obligation to compensate
[them] for the value of its use during that period.” Id.

Appendix A-18
The United States Supreme Court rejected their
claim, cautioning that “we still resist the temptation
to adopt per se rules in our cases involving partial
regulatory takings.” Id. at 326. Instead, categorical
rules for regulatory takings claims are appropriate
only in an ‘“extraordinary circumstance,’” such as
when a permanent regulation provides that “‘no
productive or economically beneficial use of land is
permitted.’” Id. at 330 (quoting Lucas, 505 U.S. at
1017).
In such extraordinary circumstances, there is no
need for a case-specific inquiry because the regulation
will “always force individuals to bear a special burden
that should be shared by the public as a whole.” Id. at
341 (emphasis added). However, absent extraordinary
circumstances, “the default rule remains that, in the
regulatory taking context, we require a more fact
specific inquiry.” Id. at 332. To determine whether
there were extraordinary circumstances requiring a
categorical rule, Tahoe-Sierra considered “the
concepts of ‘fairness and justice’ that underlie the
Takings Clause” and held that the temporary
moratoria at issue could not be deemed per se
regulatory takings. Id. at 334.
Tahoe-Sierra
thus
deeply
undermines
Manufactured Housing’s view that a categorical rule
is appropriate whenever a property owner is deprived
of any part of “the ‘bundle of sticks’ representing the
valuable incidents of ownership.” Mfd. Hous., 142
Wn.2d at 366. Instead, according to Tahoe-Sierra,
categorical rules for regulatory takings claims are
appropriate only in extraordinary circumstances. It is
unlikely that Tahoe-Sierra would recognize
extraordinary circumstances are present whenever a

Appendix A-19
regulation limits “the right to choose to whom one will
rent their property.” Resp’ts’ Br. at 1. If that were so,
every antidiscrimination law that prohibits a landlord
from rejecting a tenant based on protected
characteristics would be a per se regulatory taking
requiring either compensation or invalidation. E.g.,
RCW 49.60.222(1)(f); SMC 14.08.040(A). Tahoe-Sierra
would likely not allow such a holding because it
“would render routine government processes
prohibitively expensive,” if not impossible. 535 U.S. at
335.
Although Tahoe-Sierra cautioned that categorical
rules are rarely appropriate in regulatory takings
cases, it left open the question of when regulations
present such extraordinary circumstances that
categorical rules are appropriate. That question was
resolved in 2005, when Chevron U.S.A. definitively
held that there are only “two relatively narrow
categories” of “regulatory action that generally will be
deemed per se takings for Fifth Amendment
purposes.” 544 U.S. at 538.
One per se category applies “where government
requires an owner to suffer a permanent physical
invasion of her property.” Id. The other “applies to
regulations that completely deprive an owner of ‘all
economically beneficial us[e]’ of her property.” Id.
(alteration in original) (quoting Lucas, 505 U.S. at
1019).
Any other alleged regulatory taking must be
analyzed on a case-by-case basis according to the Penn
Central factors. Id. at 538-39. The United States
Supreme Court has since consistently applied these
standards when defining regulatory takings, such
that Chevron U.S.A. is clearly the Court’s final,

Appendix A-20
definitive statement on this issue at this time. See
Murr v. Wisconsin, 582 U.S._, 137 S. Ct. 1933, 194243, 198 L. Ed. 2d 497 (2017); Horne v. Dep ‘t of Agric.,
576 U.S._, 135 S. Ct. 2419, 2429, 192 L. Ed. 2d 388
(2015); Ark. Game & Fish Comm ‘n v. United States,
568 U.S. 23, 31-32, 133 S. Ct. 511, 184 L. Ed. 2d 417
(2012); Stop the Beach Renourishment, Inc. v. Fla.
Dep’t of Envtl. Prat., 560 U.S. 702, 713, 130 S. Ct.
2592, 177 L. Ed. 2d 184 (2010) (partial plurality
opinion).
Chevron U.S.A. narrowly defines per se regulatory
takings that trigger categorical rules. By contrast,
Manufactured Housing’s definition of per se
regulatory takings broadly applies a categorical rule
to any regulation that destroys any fundamental
attribute of ownership. Tahoe-Sierra strongly
indicates such a categorical rule would be rejected by
the United States Supreme Court and Chevron U.S.A.
confirms it. Therefore, Manufactured Housing’s
definition of per se regulatory takings is no longer a
valid application of the federal law on which it was
based. And because it has not been shown that we
should now depart from the federal definition of
regulatory takings as a matter of independent state
law, we disavow Manufactured Housing’s definition. 4
Some amici appear to contend that we should now adopt
Manufactured Housing’s definition of per se regulatory takings
as a matter of independent state law. However, amici’s
arguments are all based on Washington’s more protective
definitions of public and private uses, which, as discussed above,
are relevant only to the appropriate remedy once a taking has
been established. No party or amicus performs a Gunwall
analysis or provides any other principled basis on which to define
regulatory takings broadly as a matter of independent state law.
See Gunwall, 106 Wn.2d 54. We therefore decline to do so.

4

Appendix A-21
In addition, Chevron U.S.A. clarified the Penn
Central factors for evaluating partial regulatory
takings claims that do not fit within either per se
category. Those factors are intended to shed light on
“the magnitude or character of the burden a particular
regulation imposes upon private property rights” and
to provide “information about how any regulatory
burden is distributed among property owners.” Id. at
542. The factors explicitly do not ask “whether a
regulation of private property is effective in achieving
some legitimate public purpose.” Id.
By contrast, our prior regulatory takings cases
allow a regulation to be “insulated from a ‘takings’
challenge” if it “protects the public from harm” and
require courts to consider whether the challenged
“regulation substantially advances legitimate state
interests.” Presbytery, 114 Wn.2d at 330, 333; see also
Margola Assocs., 121 Wn.2d at 645-46; Guimont, 121
Wn.2d at 603-04; Robinson, 119 Wn.2d at 49-50;
Sintra, 119 Wn.2d at 14-17; Orion Corp., 109 Wn.2d
at 658.
That precedent can no longer be valid because it
may provide less protection for private property rights
than the federal constitution does. See Orion Corp.,
109 Wn.2d at 652, 657-58.
In sum, today we continue our long-standing
practice of following federal law in defining regulatory
takings and explicitly adopt the definition set forth in
Chevron U.S.A. Pursuant to Chevron U.S.A., there are
only two categories of per se regulatory takings: (1)
“where government requires an owner to suffer a
permanent physical invasion of her property” and (2)
“regulations that completely deprive an owner of ‘all
economically beneficial us[e]’ of her property.” 544

Appendix A-22
U.S. at 538 (alteration in original) (quoting Lucas, 505
U.S. at 1019). If an alleged regulatory taking does not
fit into either category, it must be considered on a
case-by-case basis in accordance with the Penn
Central factors. Id. at 538-39.
3. The plaintiffs do not show that the FIT rule
facially effects a regulatory taking
The plaintiffs do not argue that the FIT rule fits
into either of the per se categories set forth in Chevron
U.S.A., and it clearly does not. On its face, the FIT
rule does not require any property owners to suffer
any permanent physical invasion of their properties,
and the plaintiffs do not contend that the FIT rule
deprives them of any economically beneficial uses of
their properties, let alone every economically
beneficial use. The plaintiffs also do not contend that
the FIT rule is a regulatory taking pursuant to the
Penn Central factors. 5 We therefore reverse the trial
court and hold that the plaintiffs have not shown the
FIT rule facially effects a regulatory taking of their
property.
B. Because the plaintiffs have not shown that the
FIT rule effects a taking, we do not reach the issue of
whether it is for private use
The plaintiffs contend that the regulatory taking
effected by the FIT rule is for private use, rather than
public use, and is therefore invalid. Because we hold
that the plaintiffs do not show the FIT rule effects a
taking at all, we decline to consider the public/private
use distinction. As discussed above, that distinction is
5
We express no opinion on whether application of the Penn
Central factors would show that the FIT rule effects a regulatory
taking as applied to any particular property.

Appendix A-23
relevant only to the appropriate remedy where a
taking has been shown, and no taking has been shown
here.
C. The FIT rule does not facially violate
substantive due process
The plaintiffs next claim that the FIT rule facially
violates their article I, section 3 right to substantive
due process, contending that the FIT rule is subject to
heightened scrutiny because it regulates a
fundamental attribute of property ownership. We hold
that the applicable standard is rational basis review,
which the FIT rule survives.
1. The FIT rule is subject to rational basis review
As discussed in more detail in our opinion in Yim
II, we have never held that independent state law
requires a heightened standard of review for
substantive due process challenges to laws regulating
the use of property. Instead, we have always looked to
federal law to discern the appropriate standard of
review, and it has not been shown that we should
adopt a heightened standard now as a matter of
independent state law. We therefore hold that the
plaintiffs’ article I, section 3 substantive due process
claim is subject to the same standard that would apply
if their claims were based on the due process clauses
of the Fifth and Fourteenth Amendments. That
standard is rational basis review.
We recognize that some United States Supreme
Court precedent might suggest heightened scrutiny is
required by stating that laws regulating the use of
property must not be ‘“unduly oppressive’” on the
property owner, or must have a “‘substantial relation’”
to a legitimate government purpose. Goldblatt, 369

Appendix A-24
U.S. at 595 (quoting Lawton, 152 U.S. at 137); Nectow
v. City of Cambridge, 277 U.S. 183, 187, 48 S. Ct. 447,
72 L. Ed. 842 (1928) (quoting Village of Euclid v.
Ambler Realty Co., 272 U.S. 365, 395, 47 S. Ct. 114, 71
L. Ed. 303 (1926)). However, the United States
Supreme Court does not interpret this language as
requiring heightened scrutiny. Instead, the “unduly
oppressive” test has been interpreted as “applying a
deferential ‘reasonableness’ standard.” Chevron
U.S.A., 544 U.S. at 541 (internal quotation marks
omitted) (citing and quoting Goldblatt, 369 U.S. at
594-95; Lawton, 152 U.S. at 137). Likewise, it has long
been acknowledged that “the use of property and the
making of contracts are normally matters of private
and not of public concern,” but “[e]qually fundamental
with the private right is that of the public to regulate
it in the common interest.” Nebbia v. New York, 291
U.S. 502,523, 54 S. Ct. 505, 78 L. Ed. 940 (1934).
Therefore, a law regulating the use of property
violates substantive due process only if it “fails to
serve any legitimate governmental objective,” making
it “arbitrary or irrational.” Chevron U.S.A., 544 U.S.
at 542; see also Kentner v. City of Sanibel, 750 F.3d
1274, 1280-81 (11th Cir. 2014), cert. denied, 135 S. Ct.
950 (2015); Samson v. City of Bainbridge Island, 683
F.3d 1051, 1058 (9th Cir.), cert. denied, 568 U.S. 1041
(2012). This test corresponds to rational basis review,
which requires only that “the challenged law must be
rationally related to a legitimate state interest.”
Amunrud, 158 Wn.2d at 222. We therefore apply

Appendix A-25
rational basis review to the plaintiffs’ substantive due
process challenge to the FIT rule. 6
2. The FIT rule survives rational basis review on
its face
Rational basis review requires that “the
challenged law must be rationally related to a
legitimate state interest.” Id. Rational basis review is
highly deferential because “a court may assume the
existence of any necessary state of facts which it can
reasonably conceive in determining whether a
rational relationship exists between the challenged
law and a legitimate state interest.” Id.
The purpose of the FIT rule is to mitigate the
impact of implicit bias in tenancy decisions. The
plaintiffs appear to suggest this is not a legitimate
government interest because “implicit bias can be
both positive and negative.” Resp’ts’ Br. at 41.
However, the fact that implicit bias may work to some
people’s advantage some of the time does not mean
that mitigating its impact is an illegitimate purpose.
Indeed, this court has recognized the importance of
mitigating implicit bias in the context of jury selection
with the enactment of GR 37. The plaintiffs do not
show that implicit bias must be allowed to continue in
the rental housing context.
The FIT rule’s requirements are also rationally
related to achieving its purpose. A rational person
could believe that implicit bias will be mitigated by
requiring landlords to offer tenancy to the first
Appended to our opinion in Yim II is a nonexclusive list of this
court’s precedent that can no longer be interpreted as requiring
heightened scrutiny in substantive due process challenges to
laws regulating the use of property.

6

Appendix A-26
qualified applicant, rather than giving landlords
discretion to reject an otherwise-qualified applicant
based on a “gut check.” Verbatim Report of
Proceedings (Feb. 23, 2018) at 36. It is precisely in
such gut-check decisions where implicit bias is most
likely to have influence because bias is “often
unintentional, institutional, or unconscious.” State v.
Saintcalle, 178 Wn.2d 34, 36, 309 P.3d 326 (2013)
(plurality opinion), abrogated on other grounds by City
of Seattle v. Erickson, 188 Wn.2d 721, 398 P.3d 1124
(2017).
Indeed, the FIT rule’s requirements are based on
best practices recommended by industry associations,
who advise that “[u]sing a set criteria also helps show
that you are screening all applicants alike and can
help avoid claims of discrimination by applicants not
granted tenancy.” CP at 315. Landlords are therefore
advised to offer tenancy to the first qualified applicant
“as a best practice when confronted with multiple,
equally valid applications as a ‘tie breaker.’” Br. of
Amicus Curiae Rental Hous. Ass’n of Wash. at 3.
Appearing as amici, several rental housing
associations emphatically state that they do not
support the FIT rule.
Nevertheless, the procedures required by the FIT
rule are consistent with industry recommended best
practices. Amici object only to making those practices
mandatory, contending that doing so is unwise and
will prove ineffective. Rational basis review does not
invite a demanding inquiry by this court into whether
the FIT rule is good policy. Instead, our task is limited
to
deciding
whether
mandating
industryrecommended
best
practices
for
avoiding
discrimination in tenancy decisions is rationally

Appendix A-27
related to reducing the influence of implicit bias in
tenancy decisions. The answer is clearly yes.
The plaintiffs further suggest that the FIT rule
fails rational basis review because it is overbroad,
given that “non-legal approaches” could be used
instead and the FIT rule applies “even where a
protected class is not among the landlords’ applicant
pool.” Resp’ts’ Br. at 41. However, “[t]he overbreadth
doctrine may not be employed unless First
Amendment activities are within the scope of the
challenged enactment.” City of Seattle v. Montana,
129 Wn.2d 583, 598, 919 P.2d 1218 (1996) (plurality
opinion); U.S. Const. amend. I. Thus, any assertion of
overbreadth is irrelevant to the plaintiffs’ facial
substantive due process claim. The plaintiffs’ free
speech claim is addressed separately below.
It may well be that the FIT rule will prove
ineffective or unwise as a matter of policy. However,
the plaintiffs do not carry their ‘“heavy burden’” of
showing that it facially violates substantive due
process as a matter of law. Amunrud, 158 Wn.2d at
215 (quoting Larson v. Seattle Popular Monorail
Auth., 156 Wn.2d 752, 757, 131 P.3d 892 (2006)). We
therefore reverse the trial court and hold that the FIT
rule survives rational basis review on its face.
D. The FIT rule does not facially violate free speech
rights
Finally, the plaintiffs claim that the FIT rule
facially violates their article I, section 5 right to free
speech. It is undisputed that the speech at issue here
(advertisements for vacant tenancies) is “commercial
speech,” that is, “‘speech proposing a commercial
transaction.’” Zauderer v. Office of Disciplinary

Appendix A-28
Counsel, 471 U.S. 626, 637, 105 S. Ct. 2265, 85 L. Ed.
2d 652 (1985) (quoting Ohralik v. Ohio State Bar
Ass’n, 436 U.S. 447, 455-56, 98 S. Ct. 1912, 56 L. Ed.
2d 444 (1978)). It is also undisputed that article I,
section 5 and the First Amendment provide identical
protections for commercial speech. Bradburn v. N.
Cent. Reg’l Library Dist., 168 Wn.2d 789, 800, 231
P.3d 166 (2010).
The main focus of the parties’ dispute is the level
of scrutiny that we must apply to the FIT rule. The
trial court agreed with the plaintiffs that the FIT rule
is subject to intermediate scrutiny and “cannot
survive.” CP at 520. We reverse. The FIT rule is
subject to, and survives, deferential scrutiny.
1. The FIT rule is subject to deferential scrutiny
‘“[C]ommercial speech’ is entitled to the protection
of the First Amendment, albeit to protection
somewhat less extensive than that afforded
‘noncommercial speech.’” Zauderer, 471 U.S. at 637.
The level of scrutiny applied to laws governing
commercial speech depends on whether the law at
issue actually restricts commercial speech or merely
requires commercial speakers to include factual
disclosures. Id. at 650.
Where a law restricts truthful commercial speech
proposing a lawful transaction, the law is subject to
intermediate scrutiny. Cent. Hudson Gas & Elec.
Corp. v. Pub. Serv. Comm’n, 447 U.S. 557, 564, 100 S.
Ct. 2343, 65 L. Ed. 2d 341 (1980). Meanwhile, if the
law merely requires factual disclosures by commercial
speakers, review is deferential because a person’s
“constitutionally protected interest in not providing
any particular factual information in his advertising

Appendix A-29
is minimal.” Zauderer, 471 U.S. at 651. Therefore, “an
advertiser’s rights are adequately protected as long as
disclosure requirements are reasonably related to the
State’s interest in preventing deception of
consumers.” Id. The government has the burden of
proving its disclosure requirements are “neither
unjustified nor unduly burdensome.” Nat’l Inst. of
Family & Life Advocates v. Becerra, 585 U.S. _, 138 S.
Ct. 2361, 2377, 201 L. Ed. 2d 835 (2018) (NIFLA).
The plaintiffs contend that the FIT rule is a
restriction on their commercial speech because the
FIT rule provides that “[l]andlords cannot decline to
communicate a minimum threshold or communicate a
flexible standard and then weigh the credit history
against other positive or negative factors in the
application.” Resp’ts’ Br. at 43. Nothing in the text of
the FIT rule supports the plaintiffs’ contention.
Washington law already provides that “[p]rior to
obtaining any information about a prospective tenant,
the prospective landlord shall first notify the
prospective tenant” of the “types of information [that]
will be accessed to conduct the tenant screening” and
“[w]hat criteria may result in denial of the
application.” RCW 59.18.257(1)(a)(i)-(ii). The validity
of that statute is not challenged here.
The FIT rule merely provides that if property
owners have additional rental criteria beyond what
may result in a denial, they must “at the same time”
give prospective tenants notice of what those criteria
are and how they may be met. SMC 14.08.050(A)(1).
On its face, the FIT rule does not impose any
restrictions on what the landlord’s additional criteria
may be or how they must be worded, and, contrary to

Appendix A-30
the trial court’s finding, it does not facially preclude
advertisements for vacant tenancies from including
phrases such as “‘call to learn how to apply’ or ‘email
me for further details.’” CP at 518. If the FIT rule is
interpreted to impose such restrictions in the future,
a property owner may bring an as-applied challenge
that might be subject to heightened scrutiny.
However, on its face, the FIT rule requires only that
landlords disclose factual information about their own
rental criteria. It is therefore subject to deferential
scrutiny in accordance with Zauderer.
2. The FIT rule survives deferential scrutiny
The plaintiffs analyze their free speech claim only
in accordance with intermediate scrutiny. However, it
is still the City’s burden to prove that the FIT rule
survives deferential scrutiny. NIFLA, 138 S. Ct. at
2377. We hold the City has met its burden because on
its face, the FIT rule is a justified disclosure
requirement that does not unduly burden the
plaintiffs’ free speech rights.
To prove that the FIT rule is justified, the City
must show that it addresses “a harm that is
‘potentially real not purely hypothetical.’” Id. (quoting
Ibanez v. Fla. Dep’t of Bus. & Prof’l Regulation, 512
U.S. 136, 146, 114 S. Ct. 2084, 129 L. Ed. 2d 118
(1994)). The City has shown that the problem of
implicit bias in Seattle’s rental housing market is (at
least) potentially real, based on a 2014 study that
“showed evidence of differential treatment in over
60% of the tests” based on “race, national origin,
sexual orientation and gender identity.” City of
Seattle’s Opening Br. at 7; CP at 57. This differential
treatment included subjecting different applicants to
different rental criteria:

Appendix A-31
African American and Latino testers
were told about criminal background and
credit history checks more frequently
than the white testers. They also were
asked more often about their spouses’
employment history (especially with
Latino testers). They also were shown
and told about fewer amenities, provided
fewer applications and brochures, were
shown fewer vacant units. In some cases,
the prices quoted were higher for the
same unit.
Testers for sexual orientation and
gender identity were shown fewer
amenities, provided fewer applications
and brochures, and were shown fewer
vacant units. In some cases, the prices
quoted were higher for the same unit.
CP at 57. This is sufficient justification for the FIT
rule’s enactment. To prove that the FIT rule does not
“unduly burden[ ] protected speech,” the City must
show that it does not impose “a government-scripted,
speaker-based disclosure requirement that is wholly
disconnected from [the City]’s informational interest.”
NIFLA, 138 S. Ct. at 2377. It clearly does not. The
landlords are required to disclose only the rental
criteria they set for themselves, so the FIT rule does
not impose any type of script. In addition, requiring
landlords to disclose their rental criteria is directly
connected to the City’s interest in ensuring that the
same rental criteria are applied to all applicants
rather than subjecting some applicants to more
demanding criteria due to the influence of implicit
bias.

Appendix A-32
We therefore reverse the trial court and hold that
the FIT rule survives deferential scrutiny on its face.
CONCLUSION
The FIT rule is unquestionably an experiment.
This is clear from the rule itself, which requires “the
City Auditor to conduct an evaluation of the impact of
the program described in subsections 14.08.050.A-C to
determine if the program should be maintained,
amended, or repealed.” SMC 14.08.050(D). There is
room for substantial debate about whether such an
experiment is likely to succeed.
However, the plaintiffs’ facial challenges ask only
whether the FIT rule is an experiment that Seattle is
constitutionally prohibited from conducting. It is not.
We clarify that Washington courts have always
attempted to define regulatory takings consistently
with federal law, and we continue to do so now.
Therefore, we adopt the definition of regulatory
takings set forth in Chevron U.S.A. for purposes of
article I, section 16 and hold that the plaintiffs have
not met their burden of showing the FIT rule facially
meets this definition. We also clarify that rational
basis review applies in substantive due process
challenges to laws regulating the use of property and
hold that the plaintiffs have not met their burden of
proving that the FIT rule fails rational basis review
on its face. Finally, we hold that on its face, the FIT
rule requires only factual disclosures and the City has
met its burden of showing the FIT rule survives
deferential scrutiny.

Appendix A-33
We therefore reverse the trial court and remand
with instructions to grant the City’s motion for
summary judgment.
s/ YU, J.
WE CONCUR:
s/ FAIRHURST, CJ.

s/ STEPHENS, J.

s/ JOHNSON, J.

s/ WIGGINS, J.

s/ MADSEN, J.

s/ GONZALEZ, J.

s/ OWENS, J.

s/ GORDON-McCLOUD, J.

Appendix B-1

SUPERIOR COURT OF WASHINGTON IN AND
FOR KING COUNTY
CHONG and
MARILYN YIM,
KELLY LYLES, BETH
BYLUND, CNA
APARTMENTS, LLC,
and EILEEN, LLC,
Plaintiffs,
v.
THE CITY OF
SEATTLE, a
Washington Municipal
corporation,
Defendant.

No. 17-2-05595-6 SEA
ORDER GRANTING
PLAINTIFFS’ MOTION
FOR SUMMARY
JUDGMENT AND
DENYING
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

THIS MATTER having come on before the
undersigned judge of the above entitled Court on
Cross-Motions for Summary Judgment. The Court
reviewed the supporting and responsive pleadings
filed herein as follows:
1. The
complaint;

Plaintiffs’

complaint

and

amended

2. The City’s Answers;
3. The Plaintiffs’ Motion for Summary Judgment
and supporting documents;

Appendix B-2
4. The City’s Motion for Summary Judgment and
supporting documents;
5. Pertinent portions of the stipulated facts and
stipulated record; and,
6. Relevant case law and other authorities cited by
the parties.
The Court having heard oral argument, makes the
following FINDINGS based on the above submissions
and Stipulated Facts and Record:
1. There is no genuine issue as to any material fact.
2. Plaintiffs mount a facial challenge to Seattle
Municipal Code Section 14.08.050 enacted in August,
2016. The law, often called the First-in-Time or “FIT”
rule, requires landlords to establish screening criteria
and offer tenancy to the first applicant meeting them
regardless of other factors such as whether other
applicants are more qualified or offer a longer lease or
more favorable terms.
3. The FIT rule has a laudable goal of eliminating
the role of implicit bias in tenancy decisions. In
certain respects, the FIT rule attempts to codify
industry- recommended best practice by requiring
landlords to establish screening criteria and offer
tenancy to the first applicant meeting them.
4. While the Rental Housing Association of
Washington (“RHA”) which submitted an amicus
memorandum, recommends screening candidates in
chronological order, the Association opposed
mandating first-in-time as a matter of law: “For rental
housing owners this poses a serious threat to the
screening process, and removes a great deal of
discretion owners would typically be allowed to

Appendix B-3
determine whether or not an applicant is someone
they would wish to rent to.”
5. It is undisputed, and specifically acknowledged
by the City, that the FIT rule affects a landlord’s
ability to exercise discretion when deciding between
potential tenants that may be based on factors
unrelated to whether a potential tenant is a member
of a protected class.
6. Plaintiffs claim the FIT rsule, on its face,
violates the Washington Constitution by: taking their
property without compensation; taking their property
for an improper public use; violating their rights to
substantive due process; and violating their free
speech rights.
7. Though the City argues to the contrary,
Manufactured Housing Communities v. State, 142
Wn.2d 347, is binding precedent that this Court must
follow. It is a plurality opinion in which five justices
joined in the rationale and holding in that case.
A plurality opinion is often regarded as highly
persuasive, even if not fully binding. See Texas v.
Brown, 460 U.S. 730, 737, 103 S.Ct. 1535, 75 L.Ed.2d
502 (1983) (plurality opinion) (holding that while one
particular plurality opinion was “not a binding
precedent, as the considered opinion of four Members
of this Court it should obviously be the point of
reference for further discussion of the issue”).
8. Our Supreme Court itself has cited the lead
opinion in Limstrom as an interpretation by “this
court”, and saying “we have held,” even while
recognizing it as a plurality opinion. See Soter v.
Cowles Publishing Co., 162 Wash.2d 716, 733, 740,
174 P .3d 60 (2007).

Appendix B-4
9. In Manufactured Housing Communities of
Washington v. State, 142 Wn.2d 347, 363-65, 13 P.3d
183 (2000) the Supreme Court held that an owner’s
right to sell a property interest to whom he or she
chooses is a fundamental attribute of property
ownership, which cannot be taken without due
process and payment of just compensation.
10. The Washington Supreme Court’s opinion in
Manufactured Housing is the most recent and onpoint decision regarding this “fundamental attribute”
doctrine. There, a state law granted mobile-home park
tenants the power to exercise a right of first refusal if
the park owner decided to sell the property.
Manufactured Housing, 142 Wn.2d at 351-52. The
Court held that the law constituted a facial taking
because it took “from the park owner the right to
freely dispose of his or her property and [gave] to
tenants a right of first refusal to acquire the property.”
The right to freely dispose of property, the Court
reasoned, is a fundamental attribute of property
ownership, and the right of first refusal law caused a
taking when it destroyed that attribute.
11. Choosing a tenant is a fundamental attribute
of property ownership. Like a sale of a fee interest, a
lease is a disposition of a property interest.
Manufactured Housing held that selecting a buyer to
purchase a property interest is a fundamental
attribute of property ownership. Similarly, the right
to grant a right of first refusal in the context of a
leasehold is just as fundamental as the right to sell fee
title in Manufactured Housing.
12. The FIT rule’s few concessions to landlords’
interests do not redeem it. While landlords are
permitted to set their own rental criteria. See SMC §

Appendix B-5
14.08.050(A). This preliminary, general rental criteria
does not substitute for the discretion to choose a
specific tenant. Notably, the ability to negotiate, for
instance-a key element of the right to freely dispose of
property-is extinguished by the FIT rule. Even if
landlords can impose some limits on the pool of
qualified applicants, landlords and tenants still
cannot bargain for an arrangement that suits their
interests.
13. The FIT rule also violates the “private use”
requirement. Article I, Section 16, of the state
constitution says, “[p]rivate property shall not be
taken for private use.” This provision offers greater
protection to property owners than its federal
counterpart. See Manufactured Housing, 142 Wn.2d
at 360. Our state Supreme Court has described Article
I, Section 16, as an “absolute prohibition against
taking private property for private use.”
14. In Manufactured Housing, the mobile-home
law gave “tenants a right to preempt the [mobile-home
park] owner’s sale to another and to substitute
themselves as buyers.” Manufactured Housing, 142
Wn.2d at 361. The law therefore was a private use
taking because it took the right to freely dispose of
property and handed a corollary right of first refusal
to the tenants. Id. at 361-62. Rather than placing
property in public hands or increasing public access,
“[t]he statute’s design and its effect provide a
beneficial use for private individuals only.”
15. A taking is not for a public use just because it
offers a “public benefit.” Manufactured Housing, 142
Wn.2d at 362. “[T]he fact that the public interest may
require it is insufficient if the use is not really public.”
In re City of Seattle, 96 Wn.2d 616, 627, 638 P .2d 549

Appendix B-6
(1981). The state in Manufactured Housing defended
the right-of-first-refusal law by lauding its public
benefits: preserving housing stock for the poor.
Manufactured Housing, 142 Wn.2d at 371. The Court
held that such benefits could not transform the
private nature of the taking into a public one.
Similarly, the FIT rule is a taking for private use,
regardless of any public benefit.
16. Due process embodies a promise that
government will pursue legitimate purposes in a just
and rational manner. As set forth in Presbytery, 114
Wn.2d at 330 to determine if a law violates due
process, courts must address three questions:
a. Is the regulation aimed at achieving a legitimate
public purpose?
b. Does the regulation use means reasonably
necessary to achieving that purpose?
c. Is the regulation unduly oppressive?
17. As to the first question, the court finds that the
regulation is aimed at achieving a legitimate public
purpose.
18. As to the second question, the court finds it
does not. The principle that government can eliminate
ordinary discretion because of the possibility that
some people may have unconscious biases has no
limiting principle—it would expand the police power
beyond reasonable bounds. While the City can
regulate the use of property so as not to injure others,
a law that undertakes to abolish or limit the exercise
of rights beyond what is necessary to provide for the
public welfare cannot be included in the lawful police
power of the government. See Ralph v. Wenatchee, 34

Appendix B-7
Wn.2d 638, 644, 209 P.2d 270 (1949). Moreover, a law
is not reasonably necessary if its rationale and
methodology have no meaningful limiting principle.
See Beard v. Banks, 548 U.S. 521, 546, 126 S. Ct.
2572, 165 L. Ed. 2d 697 (2006) (Scalia, J., concurring).
19. The FIT rule is also an unreasonable means of
pursuing anti-discrimination because of its sweeping
overbreadth. “The overbreadth doctrine involves
substantive due process and asks whether a statute
not only prohibits unprotected conduct, but also
reaches constitutionally protected conduct.” Rhoades
v. City of Battle Ground, 115 Wn. App. 752, 768, 63
P.3d 142 (2002); Am. Dog Owners Ass’n v. City of
Yakima, 113 Wn.2d 213,217, 777 P.2d 1046 (1989).
The FIT rule is overbroad since with few exceptions,
landlords renting to the general population cannot
deny tenancy to the first qualified applicant, period.
20. As to the third question, the court finds the FIT
rule is unduly oppressive because it severely restricts
innocent business practices and bypasses less
oppressive alternatives for addressing unconscious
bias. The court reaches this conclusion in analyzing
the following non-exclusive factors to weigh as set
forth in Presbytery:
On the public’s side:
• The seriousness of the public problem.
• The extent of the landowner’s contribution to the
problem.
• The degree to which the chosen means solve the
problem.
• The feasibility of alternatives.
On the landowner’s side:

Appendix B-8
• The extent of the harm caused.
• The extent of remaining uses.
• The temporary or permanent nature of the law.
• The extent to which the landowner should have
anticipated the law.
• The feasibility of changing uses.
21. The FIT rule mandates the methods by which
landlords communicate with prospective tenants and
controls the content of those communications. See
SMC § 14.08.050(A)(1)-(2). The rule must therefore
face intermediate scrutiny as a commercial speech
restriction. See generally Expressions Hair Design v.
Schneiderman, 137 S. Ct. 1144, 1151, 197 L.Ed.2d 442
(2017).
22. Under the FIT rule, landlords must post
written notice of all rental criteria in the leasing office
or at the rental property, as well as in any website
advertisement of the unit. SMC § 14.08.050(A)(1). The
information that must be communicated via these
means is comprehensive, including all “the criteria
the owner will use to screen prospective occupants
and the minimum threshold for each criterion that the
potential occupant must meet to move forward in the
application process.” Id. § 14.08.050(A)(1)(a). The
notice must also include “all information,
documentation, and other submissions necessary for
the owner to conduct screening using the criteria
stated in the notice.” Id. § 14.08.050(A)(1)(b).
An application is deemed “complete” once the
applicant has provided all the information stated in
the mandatory notice. The landlord must offer the

Appendix B-9
unit to the first applicant who satisfies the criteria in
the advertisement. Id. § 14.08.050(A)(4).
23. The FIT rule not only constrains the means by
which landlords communicate, it also controls the
content of that communication. A landlord may not
post a rental on the web and say, “call to learn how to
apply” or “email me for further details.” Rather, the
landlord must list online all information regarding
how to apply and all criteria by which applications
will be assessed. It is undisputed that the FIT rule
violates landlords’ speech rights by prohibiting
advertisements based on content and dictating how
landlords can advertise.
24. Regulations that burden commercial speech
must satisfy intermediate scrutiny. The state
constitution protects advertising because “society has
a strong interest in preserving the free flow of
commercial information.” Kitsap Cty. v. Mattress
Outlet/Gould, 153 Wn.2d 506, 512, 104 P.3d 1280
(2005). To protect that interest, the state constitution
requires that commercial speech regulations satisfy a
four-part test:
• Whether the speech is about lawful activity and
is not deceptive;
• Whether the government interest at stake is
substantial;
• Whether the speech restriction “directly and
materially” serves that interest; and
• Whether the restriction is “no more extensive
than necessary.”
Id. at 513. A landlord’s advertisement for a vacant
unit is commercial speech because it “propose[s] a

Appendix B-10
commercial transaction.” United States v. Edge
Broad. Co., 509 U.S. 418, 426, 113 S. Ct. 2696, 125 L.
Ed. 2d 345 (1993). Because the FIT rule burdens that
commercial speech, it must satisfy the four-part test.
25. The first and second factors are clear: the
speech affected by the FIT rule is neither misleading
nor related to unlawful activity and the City has a
legitimate interest in preventing discrimination. As to
the last two steps, the speech restriction does not
“directly and materially” advance the City’s interest
in stopping discrimination, and it restricts more
speech than necessary.
26. The FIT rule does not “directly and materially”
advance the City’s interest in preventing
discrimination because it precludes the use of
landlord discretion. To satisfy this component of the
commercial speech test, the City must offer more than
“mere speculation and conjecture; rather, a
governmental body seeking to sustain a restriction on
commercial speech must demonstrate that the harms
it recites are real and that its restriction will in fact
alleviate them to a material degree.” Mattress Outlet,
153 Wn.2d at 513 (quoting Lorillard Tobacco Co. v.
Reilly, 533 U.S. 525, 555, 121 S. Ct. 2404, 150 L. Ed.
2d 532 (2001)). The City cannot sustain this burden.
27. Finally, the City must show that the speech
restriction is not more extensive than necessary. A
government restricting commercial speech must
shoulder the burden of demonstrating that the law is
narrowly tailored to achieve its ends. Mattress Outlet,
153 Wn.2d at 515. The FIT rule is not narrowly
tailored. The City conceded as much in the record
when it stipulated to a staff memo stating that the
“first in time policy affects a landlord’s ability to

Appendix B-11
exercise discretion when deciding between potential
tenants that may be based on factors unrelated to
whether a potential tenant is a member of a protected
class.” SR 000064.
28. The FIT rule restricts far more speech than
necessary to achieve its purposes in stopping
discrimination. It imposes sweeping advertising
restrictions on all Seattle landlords, restricting their
speech without any individualized suspicion of
disparate treatment. It forbids valuable speech
activities like case-by-case negotiation and tells
landlords how to communicate their criteria.
Therefore, the City’s decision to restrict speech cannot
survive intermediate scrutiny.
NOW,
THEREFORE,
IT IS HEREBY
ORDERED that the Plaintiffs’ Motion for Summary
Judgment is hereby GRANTED and the Defendant’s
Motion for Summary Judgment is DENIED.
Signed on this 28th day of March, 2018.
s/ Suzanne R. Parisien
Honorable Suzanne R. Parisien

Appendix C-1

FILE
In Clerks Office
Supreme Court of Washington
Date NOV 14 2019
s/ OWENS, J. for C.J.
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
CERTIFICATION FROM THE
UNITED STATES DISTRICT
COURT FOR THE WESTERN
DISTRICT OF WASHINGTON

)
)
)
NO. 96817-9
)
)
CHONG and MARILYN YIM, )
KELLY LYLES, EILEEN, LLC, )
En Banc
and RENTAL HOUSING
)
ASSOCIATION OF
)
WASHINGTON,
) Filed NOV 14 2019
Plaintiffs,
)
v.
)
THE CITY OF SEATTLE,
)
Defendant.
)
)
YU,
J.—This
case
concerns
the
facial
constitutionality of Seattle’s Fair Chance Housing
Ordinance, which provides in relevant part that it is
an unfair practice for landlords and tenant screening
services to “[r]equire disclosure, inquire about, or take
an adverse action against a prospective occupant, a
tenant, or a member of their household, based on any
arrest record, conviction record, or criminal history,”

Appendix C-2
subject to certain exceptions. Seattle Municipal Code
(SMC) 14.09.025(A)(2). The plaintiffs claim that on its
face, this provision violates their state constitutional
right to substantive due process and their federal
constitutional rights to free speech and substantive
due process. Wash. Const. art. I, § 3; U.S. Const.
amends. I, V, XIV.
The merits of the plaintiffs’ claims are not before
us. Instead, we have been certified three questions by
the federal district court regarding the standard that
applies to the plaintiffs’ state substantive due process
claim: (1) “What is the proper standard to analyze a
substantive due process claim under the Washington
Constitution?” (2) “Is the same standard applied to
substantive due process claims involving land use
regulations?” and (3) “What standard should be
applied to Seattle Municipal Code [chapter] 14.09
(‘Fair Chance Housing Ordinance’)?” Order, No. C180736-JCC, at 2-3 (W.D. Wash. Feb. 5, 2019).
This court has not previously adopted heightened
standards for substantive due process challenges to
laws regulating the use of property as a matter of
independent state law, and we are not asked to do so
in this case. Therefore, we answer the district court’s
questions as follows: Unless and until this court
adopts heightened protections as a matter of
independent state law, state substantive due process
claims are subject to the same standards as federal
substantive due process claims. The same is true of
state substantive due process claims involving land
use regulations and other laws regulating the use of
property. Therefore, the standard applicable to the
plaintiffs’ state substantive due process challenge to

Appendix C-3
the Fair Chance Housing Ordinance is rational basis
review.
FACTUAL AND PROCEDURAL BACKGROUND
In 2014, the mayor of Seattle and the Seattle City
Council convened an advisory committee “to evaluate
potential strategies to make Seattle more affordable,
equitable, and inclusive.” Doc. 33-12, at 59 (Stipulated
R.). The committee recommended “a multi-pronged
approach of bold and innovative solutions to address
Seattle’s housing affordability crisis,” particularly as
related to “barriers to housing faced by people with
criminal records.” Id. at 59-60. Based on the
committee’s report and its own findings, the Seattle
City Council enacted the Fair Chance Housing
Ordinance, chapter 14.09 SMC. Several Seattle
landlords and the Rental Housing Association of
Washington (which provides tenant screening
services)
challenged
the
ordinance’s
facial
constitutionality in King County Superior Court.
Their challenge focuses on SMC 14.09.025(A)(2),
which makes it an unfair practice for landlords and
tenant screening services to “[r]equire disclosure,
inquire about, or take an adverse action against a
prospective occupant, a tenant, or a member of their
household, based on any arrest record, conviction
record, or criminal history,” subject to certain
exceptions. The plaintiffs claim that this provision
facially violates their federal free speech rights and
their state and federal substantive due process rights.
Defendant city of Seattle (City) removed the case
to federal district court, and the parties filed cross
motions for summary judgment based on stipulated
facts and a stipulated record. The district court has
not yet ruled on the summary judgment motions

Appendix C-4
because the parties dispute the standard of review
that applies to the plaintiffs’ state substantive due
process claim. The plaintiffs contend that the Fair
Chance Housing Ordinance deprives property owners
of “a fundamental property interest” and is therefore
subject to heightened scrutiny. Doc. 23, at 21.
The City contends that rational basis review
applies.
The district court noted that another pending case
involving a different Seattle ordinance, Chong Yim v.
City of Seattle, No. 95813-1 (Wash. Nov. 14, 2019)
(Yim I), raises a similar dispute regarding the
standard that applies to state substantive due process
claims in Washington. Therefore, “wary about
applying a potentially inaccurate standard under
state law,” the district stayed this case and certified
to us three questions regarding the applicable
standard of review. Order at 2.
ISSUES
A. “What is the proper standard to analyze a
substantive due process claim under the Washington
Constitution?” Id.
B. “Is the same standard applied to substantive
due process claims involving land use regulations?”
Id.
C. “What standard should be applied to Seattle
Municipal Code [chapter] 14.09 (‘Fair Chance
Housing Ordinance’)?” Id. at 3.
ANALYSIS
Article I, section 3 of the Washington State
Constitution provides, “No person shall be deprived of
life, liberty, or property, without due process of law.”

Appendix C-5
Our state due process protection against “the
arbitrary exercise of the powers of government” has
both procedural and substantive components. State v.
Cater’s Motor Freight Sys., Inc., 27 Wn.2d 661, 667,
179 P.2d 496 (1947). The procedural component
provides that “[w]hen a state seeks to deprive a person
of a protected interest,” the person must “receive
notice of the deprivation and an opportunity to be
heard to guard against erroneous deprivation.”
Amunrud v. Bd. of Appeals, 158 Wn.2d 208, 216, 143
P.3d 571 (2006). Meanwhile, the substantive
component of due process “protects against arbitrary
and capricious government action even when the
decision to take action is pursuant to constitutionally
adequate procedures.” Id. at 218-19. This case
concerns only the substantive component.
In a substantive due process claim, courts
scrutinize the challenged law according to “a meansends test” to determine if “a regulation of private
property is effective in achieving some legitimate
public purpose.” Lingle v. Chevron U.S.A. Inc., 544
U.S. 528, 542, 125 S. Ct. 2074, 161 L. Ed. 2d 876
(2005) (emphasis omitted). The level of scrutiny to be
applied depends on “the nature of the right involved.”
Amunrud, 158 Wn.2d at 219. “State interference with
a fundamental right is subject to strict scrutiny,”
which “requires that the infringement is narrowly
tailored to serve a compelling state interest.” Id. at
220. Meanwhile, “[w]hen state action does not affect a
fundamental right, the proper standard of review is
rational basis,” which requires only that “the
challenged law must be rationally related to a
legitimate state interest.” Id. at 222.

Appendix C-6
The plaintiffs characterize the right involved here
as a “fundamental property interest[],” specifically,
“the right of each residential landlord to rent her
property to a person of her own choice.” Pls.’ Resp. Br.
at 15-16. They do not contend that this right requires
the application of strict scrutiny, but they do not
concede that rational basis review applies either.
Instead, the plaintiffs argue that there is a third type
of review, which applies in substantive due process
challenges to laws restricting “fundamental property
rights” or “traditional ‘old property’ rights.” Id. at 15
n.6. This third type of review, the plaintiffs contend,
is “some form of intermediate scrutiny,” which exceeds
rational basis review by requiring that laws
regulating the use of property must either
substantially advance a government interest (the
“substantially advances test”) or not be unduly
oppressive on the property owner (the “unduly
oppressive test”). Id. at 39.
The level of scrutiny that applies to the plaintiffs’
state substantive due process claim is a constitutional
question that we decide as a matter of law. Amunrud,
158 Wn.2d at 215. We hold that rational basis review
applies, and we clarify that the cases cited by the
plaintiffs can no longer be interpreted as requiring
heightened
scrutiny
because
their
“legal
underpinnings” have “disappeared.” WG. Clark
Constr. Co. v. Pac. Nw. Reg’l Council of Carpenters,
180 Wn.2d 54, 66, 322 P.3d 1207 (2014).
A. In answer to the first two certified questions,
independent state law does not require heightened
scrutiny in article I, section 3 substantive due process
challenges to laws regulating the use of property
“[T]he protection of the fundamental rights of

Appendix C-7
Washington citizens was intended to be and remains
a separate and important function of our state
constitution and courts that is closely associated with
our sovereignty.” State v. Coe, 101 Wn.2d 364, 374,
679 P.2d 353 (1984). Therefore, this court has a duty
to recognize heightened constitutional protections as
a matter of independent state law in appropriate
cases. O’Day v. King County, 109 Wn.2d 796, 801-02,
749 P.2d 142 (1988). Nevertheless, “[t]his court
traditionally has practiced great restraint in
expanding state due process beyond federal
perimeters.” Rozner v. City of Bellevue, 116 Wn.2d
342, 351, 804 P.2d 24 (1991). Accordingly, we have
never before required heightened scrutiny in
substantive due process challenges to laws regulating
the use of property as a matter of independent state
law. In light of the arguments presented in this case,
we decline to do so now.
We recognize that in a number of cases, this court
has recited the “unduly oppressive” test, which
appears to exceed rational basis review by asking “(1)
whether the regulation is aimed at achieving a
legitimate public purpose; (2) whether it uses means
that are reasonably necessary to achieve that purpose;
and (3) whether it is unduly oppressive on the
landowner.” Presbytery of Seattle v. King County, 114
Wn.2d 320, 330, 787 P.2d 907 (1990); see also, e.g.,
Tiffany Family Tr. Corp. v. City of Kent, 155 Wn.2d
225, 238, 119 P.3d 325 (2005); Orion Corp. v. State,
109 Wn.2d 621, 651, 747 P.2d 1062 (1987). We have
never explicitly rejected the “unduly oppressive” test,
although we have noted that it “has limited
applicability even in land use cases.” Amunrud, 158
Wn.2d at 226 n.5. We have also occasionally suggested
that a “substantial relation” test applies and that this

Appendix C-8
test requires heightened scrutiny by asking whether
police power regulations bear a ‘“real or substantial
relation’” (as opposed to a merely rational relation) to
legitimate government purposes. Biggers v. City of
Bainbridge Island, 162 Wn.2d 683, 694, 169 P.3d 14
(2007) (plurality opinion) (quoting State ex rel.
Brislawn v. Meath, 84 Wash. 302, 313, 147 P. 11
(1915)); see also, e.g., Remington Arms Co. v. Skaggs,
55 Wn.2d 1, 5-6, 345 P.2d 1085 (1959).
However, this precedent is based on opinions of the
United States Supreme Court, not on independent
state law. Hugh D. Spitzer, Municipal Police Power in
Washington State, 75 Wash. L. Rev. 495, 513-15
(2000). The “unduly oppressive” test is derived from
an 1894 opinion, Lawton v. Steele: To justify the State
in thus interposing its authority in behalf of the
public, it must appear, first, that the interests of the
public generally, as distinguished from those of a
particular class, require such interference; and,
second, that the means are reasonably necessary for
the accomplishment of the purpose, and not unduly
oppressive upon individuals. 152 U.S. 133, 137, 14 S.
Ct. 499, 38 L. Ed. 385 (1894); see also Goldblatt v.
Town of Hempstead, 369 U.S. 590, 594-95, 82 S. Ct.
987, 8 L. Ed. 2d 130 (1962).
Meanwhile, the “substantial relation” test is
derived from an 1887 opinion, Mugler v. Kansas:
If, therefore, a statute purporting to
have been enacted to protect the public
health, the public morals, or the public
safety, has no real or substantial relation
to those objects, or is a palpable invasion
of rights secured by the fundamental
law, it is the duty of the courts to so

Appendix C-9
adjudge, and thereby give effect to the
Constitution.
123 U.S. 623, 661, 8 S. Ct. 273, 31 L. Ed. 205
(1887). We have never held that any form of
heightened scrutiny is independently required by
article I, section 3 of the Washington State
Constitution, and the parties do not ask us to do so
now. 1
Because the heightened scrutiny apparently
required by some of our precedent derives from federal
law, we need not consider whether such heightened
scrutiny is “incorrect and harmful.” W. G. Clark, 180
Wn.2d at 66. Instead, we may consider whether the
federal “legal underpinnings of our precedent have
changed or disappeared altogether.” Id. As discussed
below, the federal legal underpinnings of our
precedent have disappeared because the United
States Supreme Court requires only rational basis
review in substantive due process challenges to laws
regulating the use of property. In the absence of a
Gunwall 2 analysis or any other principled basis for
departing from federal law, we decline to do so at this
time.
The district court’s first two certified questions are
“What is the proper standard to analyze a substantive
Two amici in Yim I appear to argue that article I, section 3 does
provide enhanced substantive protections beyond those
guaranteed by the federal due process clauses. See Br. of Amicus
Curiae Goldwater Inst. (Yim I) at 5; Br. of Amicus Curiae Rental
Hous. Ass’n of Wash. (Yim I) at 13. However, neither filed an
amicus brief in this case and neither provides a principled basis
on which to recognize enhanced protections as a matter of
independent state law.
2
State v. Gunwall, 106 Wn.2d 54, 720 P.2d 808 (1986).
1

Appendix C-10
due process claim under the Washington
Constitution?” and “Is the same standard applied to
substantive due process claims involving land use
regulations?” Order at 2. We answer that unless and
until this court adopts a heightened standard as a
matter of independent state law, article I, section 3
substantive due process claims are subject to the same
standards as federal substantive due process claims.
The same is true for substantive due process claims
involving land use regulations. Our precedent
suggesting otherwise can no longer be interpreted as
requiring a heightened standard of review as a matter
of independent state law. 3
B. In answer to the third certified question, we
hold that rational basis review applies to the
plaintiffs’ state substantive due process challenge to
the Fair Chance Housing Ordinance
Because the plaintiffs do not advance an
independent state law argument, the parties’ primary
dispute is the minimum level of scrutiny required by
the federal due process clauses. Although this issue is
arguably not a question of “local law,” RCW 2.60.020,
we exercise our discretion to address it because it is
necessary to provide complete answers to the certified
questions in this case. See Broad v. Mannesmann
Anlagenbau, AG, 141 Wn.2d 670, 676, 10 P.3d 371
Attached as an appendix is a list of this court’s precedent that
can no longer be interpreted as requiring a heightened standard
of review. We caution that this list is not exclusive and that any
holding by this court or the Court of Appeals that heightened
scrutiny is required in state substantive due process challenges
to laws regulating the use of property is no longer good law. We
express no opinion as to whether the outcome of any particular
case would have been different had it explicitly applied rational
basis review.
3

Appendix C-11
(2000). The plaintiffs contend that federal substantive
due process law requires heightened scrutiny of laws
regulating the use of property and that it does so
because “fundamental attribute[s] of property” are
recognized as “fundamental right[s] subject to
heightened scrutiny” for substantive due process
purposes. Pls.’ Resp. Br. at 31. Therefore, the
plaintiffs reason, their state substantive due process
challenge to the Fair Chance Housing Ordinance
cannot be subject to deferential rational basis review.
We disagree. As a matter of current federal law,
the “unduly oppressive” and “substantial relation”
tests are not interpreted as requiring heightened
scrutiny, and the “substantially advances” test has
been explicitly rejected. Instead, a law regulating the
use of property violates substantive due process only
if it “fails to serve any legitimate governmental
objective,” making it “arbitrary or irrational.” Chevron
U.S.A., 544 U.S. at 542; see also Kentner v. City of
Sanibel, 750 F.3d 1274, 1280-81 (11th Cir. 2014), cert.
denied, 135 S. Ct. 950 (2015); Samson v. City of
Bainbridge Island, 683 F.3d 1051, 1058 (9th Cir.),
cert. denied, 568 U.S. 1041 (2012). This test
corresponds to rational basis review. In addition, the
use of property has not been recognized as a
fundamental right for substantive due process
purposes. Therefore, the standard that applies to the
plaintiffs’ state substantive due process challenge to
the Fair Chance Housing Ordinance is rational basis
review.
1. The “unduly oppressive” test is no longer
interpreted as requiring heightened scrutiny
The plaintiffs correctly point out that the United
States Supreme Court has never explicitly overruled

Appendix C-12
the “unduly oppressive” language that originated in
Lawton and was repeated in Goldblatt. However, the
plaintiffs fail to recognize that the United States
Supreme Court does not interpret this language as
requiring heightened scrutiny. To the contrary, the
United States Supreme Court has made it clear in its
2005 Chevron U.S.A. decision that Lawton and
Goldblatt should be interpreted as applying a
deferential standard that corresponds to rational
basis review.
The reason Goldblatt may appear to require
heightened scrutiny is that Goldblatt was decided
during a period of “doctrinal blurring that has
occurred between due process and regulatory
takings.” Orion Corp., 109 Wn.2d at 647. A
“regulatory taking” occurs when a government
restriction on the use of private property is so onerous
that the regulation amounts to “a de facto exercise of
eminent domain requiring just compensation.” Id. at
645. For many years, United States Supreme Court
cases did not clearly differentiate between the tests
for determining (1) when a regulation is so
burdensome that it effectively takes private property
and (2) when a regulation arbitrarily interferes with
the use of property in violation of substantive due
process. See Chevron U.S.A., 544 U.S. at 541-42.
Goldblatt was one such case. Its “unduly
oppressive” test, which asks who must bear the
economic burden of a regulation, Amunrud, 158
Wn.2d at 226 n.5, reflects concerns implicated by the
takings clause, such as “the magnitude or character of
the burden a particular regulation imposes upon
private property rights” and “how any regulatory
burden is distributed among property owners.”

Appendix C-13
Chevron U.S.A., 544 U.S. at 542. It does not reflect the
core concern of substantive due process, which is
“whether a regulation of private property is effective
in achieving some legitimate public purpose.” Id.
Petitioners’ note: Modified by Order Amending
Opinion, January 9, 2020. See Pet. App. D.
While Goldblatt “does appear to assume that the
inquiries are the same” for both regulatory takings
and substantive due process claims, the United States
Supreme Court has recognized that “that assumption
is inconsistent with the formulations of our later
cases.” Nollan v. Cal. Coastal Comm’n, 483 U.S. 825,
834 n.3, 107 S. Ct. 3141, 97 L. Ed. 2d 677 (1987). As
such, Goldblatt has been cited most often for takings
principles, not due process principles. E.g., Lucas v.
S.C. Coastal Council, 505 U.S. 1003, 1022, 112 S. Ct.
2886, 120 L. Ed. 2d 798 (1992); Keystone Bituminous
Coal Ass’n v. DeBenedictis, 480 U.S. 470, 490, 107 S.
Ct. 1232, 94 L. Ed. 2d 472 (1987); Penn Cent. Transp.
Co. v. New York City, 438 U.S. 104, 124-27, 98 S. Ct.
2646, 57 L. Ed. 2d 631 (1978).
To the extent Goldblatt does appear to require
heightened scrutiny of laws regulating the use of
property for substantive due process purposes, the
United States Supreme Court has clarified that it
does not. Instead, Goldblatt has been interpreted as
“applying a deferential ‘reasonableness’ standard.”
Chevron U.S.A., 544 U.S. at 541 (internal quotation
marks omitted) (quoting and citing Goldblatt, 369
U.S. at 594-95; Lawton, 152 U.S. at 137). This
deferential standard protects against “arbitrary or
irrational” restrictions on property use. Id. at 542; see
also id. at 548 (Kennedy, J., concurring).

Appendix C-14
The “arbitrary or irrational” standard is not
heightened scrutiny. It corresponds to rational basis
review, which requires only that “the challenged law
must be rationally related to a legitimate state
interest.” Amunrud, 158 Wn.2d at 222. The plaintiffs
do not cite, and we cannot find, any post-Chevron
U.S.A. decision in which the United States Supreme
Court has held the “unduly oppressive” test requires
heightened scrutiny in substantive due process
challenges to laws regulating the use of property.
As we have already held, “[t]hat a statute is unduly
oppressive is not a ground to overturn it under the due
process clause.” Salstrom’s Vehicles, Inc. v. Dep’t of
Motor Vehicles, 87 Wn.2d 686, 693, 555 P.2d 1361
(1976). Today, we reaffirm that holding and clarify
that the “unduly oppressive” test recited in many of
our cases can no longer be interpreted as requiring
heightened scrutiny in substantive due process
challenges to laws regulating the use of property.
2. The “substantially advances” test has been
rejected and the “substantial relation” test is no
longer interpreted as requiring heightened scrutiny
As an alternative to the “unduly oppressive” test,
the plaintiffs contend that laws regulating the use of
property must be scrutinized in accordance with the
“substantially advances” test, which the plaintiffs
characterize as “a form of heightened scrutiny that
closely mirrors this Court’s understanding of the
unduly oppressive test.” Pls.’ Resp. Br. at 38. We
disagree. Since at least 1934, federal law has required
only deferential rational basis review.
The plaintiffs point to the United States Supreme
Court’s 2005 decision in Chevron U.S.A. to argue that

Appendix C-15
a heightened
required.

“substantially

advances”

test

is

However, Chevron U.S.A. actually states “that the
‘substantially advances’ formula was derived from due
process” and holds “that it has no proper place in our
takings jurisprudence.” 544 U.S. at 540 (emphasis
added). Chevron U.S.A. does not hold that a
heightened “substantially advances” test reflects
current federal substantive due process law, and it
clearly does not.
The “substantially advances” test was set forth in
a takings case, Agins v. City of Tiburon, 447 U.S. 255,
260, 100 S. Ct. 2138, 65 L. Ed. 2d 106 (1980). However,
the test was derived from two Lochner-era 4
substantive due process cases, Nectow v. City of
Cambridge, 277 U.S. 183, 48 S. Ct. 447, 72 L. Ed. 842
(1928), and Village of Euclid v. Ambler Realty Co., 272
U.S. 365, 47 S. Ct. 114, 71 L. Ed. 303 (1926). Both
Nectow and Ambler Realty Co. do state that zoning
regulations must have a “‘substantial relation to the
public health, the public morals, the public safety or
the public welfare in its proper sense.’” Nectow, 277
U.S. at 187-88 (emphasis added) (quoting Ambler
Realty Co., 272 U.S. at 395).
Nevertheless, both cases also state that a
regulation fails this test only if it ‘“has no foundation
in reason and is a mere arbitrary or irrational exercise
of power.”‘ Id. at 187 (emphasis added) (quoting
Ambler Realty Co., 272 U.S. at 395). This language is
arguably contradictory, as the “substantial relation”
4 Lochner v. New York, 198 U.S. 45, 25 S. Ct. 539, 49 L. Ed. 937
(1905), abrogated by W. Coast Hotel Co. v. Parrish, 300 U.S. 379,
57 S. Ct. 578, 81 L. Ed. 703 (1937).

Appendix C-16
test may appear to require heightened scrutiny, while
the “arbitrary or irrational” test suggests that
deferential rational basis review applies. However,
any confusion has long since been resolved because
the United States Supreme Court does not interpret
the “substantial relation” test as requiring heightened
scrutiny.
Since at least 1934, the United States Supreme
Court has recognized that “the use of property and the
making of contracts are normally matters of private
and not of public concern,” but “[e]qually fundamental
with the private right is that of the public to regulate
it in the common interest.” Nebbia v. New York, 291
U.S. 502, 523, 54 S. Ct. 505, 78 L. Ed. 940 (1934). Laws
regulating the use of property are therefore not
subject to heightened scrutiny:
The doctrine that prevailed in
Lochner . . . and like cases—that due
process authorizes courts to hold laws
unconstitutional when they believe the
legislature has acted unwisely—has long
since been discarded. We have returned
to the original constitutional proposition
that courts do not substitute their social
and economic beliefs for the judgment of
legislative bodies, who are elected to
pass laws.
Ferguson v. Skrupa, 372 U.S. 726, 730, 83 S. Ct.
1028, 10 L. Ed. 2d 93 (1963); see also Greater Chi.
Combine & Ctr., Inc. v. City of Chicago, 431 F.3d 1065,
1071 (7th Cir. 2005) (“[O]ur precedent has routinely
applied [Ambler Realty Co.] as a rational basis rule for
substantive due process and equal protection
challenges to municipal ordinances.”).

Appendix C-17
Thus, according to current United States Supreme
Court precedent, a law that regulates the use of
property violates substantive due process only if it
“fails to serve any legitimate governmental objective,”
making it “arbitrary or irrational.”
Chevron U.S.A., 544 U.S. at 542. Even where a law
restricts the use of private property, “ordinances are
‘presumed valid, and this presumption is overcome
only by a clear showing of arbitrariness and
irrationality.’” Samson, 683 F.3d at 1058 (quoting
Kawaoka v. City of Arroyo Grande, 17 F.3d 1227, 1234
(9th Cir. 1994)); see also Kentner, 750 F.3d at 1280-81.
As noted above, this test corresponds to rational
basis review, which requires only that “the challenged
law must be rationally related to a legitimate state
interest.” Amunrud, 158 Wn.2d at 222. The plaintiffs
do not cite, and we cannot find, any post-Chevron
U.S.A. decision in which the United States Supreme
Court has held the “substantial relation” or
“substantially advances” tests require heightened
scrutiny in substantive due process challenges to laws
regulating the use of property. To the contrary, as
recently as 2017, the United States Supreme Court
reiterated “that the test articulated in Agins—that
regulation effects a taking if it ‘does not substantially
advance legitimate state interests’—was improper
because it invited courts to engage in heightened
review of the effectiveness of government regulation.”
Murr v. Wisconsin, 582 U.S._, 137 S. Ct. 1933, 1947,
198 L. Ed. 2d 497 (2017) (emphasis added) (internal
quotation marks omitted) (quoting Chevron U.S.A.,
544 U.S. at 540).

Appendix C-18
3. The use of property is not recognized as a
fundamental right for substantive due process
purposes
Finally, the plaintiffs argue that heightened
scrutiny is required because the “fundamental
attribute[s] of property” are recognized as
“fundamental right[s]” for substantive due process
purposes-not so fundamental as to require strict
scrutiny, but fundamental enough to require “some
form of intermediate scrutiny.” Pls.’ Resp. Br. at 31,
39. None of the cases the plaintiffs cite could fairly be
read to make such a holding.
Without question, the federal due process clauses
do require “heightened protection against government
interference with certain fundamental rights and
liberty interests.” Washington v. Glucksberg, 521 U.S.
702, 720, 117 S. Ct. 2258, 138 L. Ed. 2d 772 (1997).
However, our Court of Appeals recently held that the
use of property is not a fundamental right for
substantive due process purposes: “Just as the right
to pursue a particular profession is not a fundamental
right but is a right that is nevertheless subject to
reasonable government regulation, so, for substantive
due process purposes, is the right to use one’s
property.” Olympic Stewardship Found. v. Envt’l &
Land Use Hr’gs Office, 199 Wn. App. 668, 720-21, 399
P.3d 562 (2017) (citation omitted) (citing Amunrud,
158 Wn.2d at 220), review denied, 189 Wn.2d 1040,
cert. denied, 139 S. Ct. 81 (2018). Both this court and
the United States Supreme Court declined to review
this holding.
Nevertheless, the plaintiffs contend Olympic
Stewardship was incorrect, relying on cases from this
court and the United States Supreme Court that

Appendix C-19
discuss the importance of property rights, primarily in
the context of takings cases. See Pls.’ Resp. Br. at 2,
16-17, 31, 39; Pls.’ Second Statement of Additional
Auth. 5
We do not question that property rights are
important. However, as noted above, the United
States Supreme Court has also made it clear that
takings claims and substantive due process claims are
different matters involving different considerations.
Chevron U.S.A., 544 U.S. at 541-42. None of the cases
cited by the plaintiffs actually addresses the question
of whether the use of property is a fundamental right
for substantive due process purposes, and they
certainly do not make such a holding.
The plaintiffs also cite many cases from this court
and the United States Supreme Court applying the
“substantial relation” or “unduly oppressive” tests as
evidence that the use of property is a fundamental

Citing Knick v. Township of Scott, 588 U.S._, 139 S. Ct. 2162,
204 L. Ed. 2d 558 (2019) (takings); Nollan, 483 U.S. at 833
(takings); Kaiser Aetna v. United States, 444 U.S. 164, 179-80,
100 S. Ct. 383, 62 L. Ed. 2d 332 (1979) (takings); Fuentes v.
Shevin, 407 U.S. 67, 81, 92 S. Ct. 1983, 32 L. Ed. 2d 556 (1972)
(procedural due process); McCoy v. Union Elevated R.R. Co., 247
U.S. 354, 365, 38 S. Ct. 504, 62 L. Ed. 1156 (1918) (just
compensation); City of Bremerton v. Widell, 146 Wn.2d 561, 572,
51 P.3d 733 (2002) (criminal trespass); Mfd. Hous. Cmtys. of
Wash. v. State, 142 Wn.2d 347, 363-65, 13 P.3d 183 (2000)
(plurality opinion) (takings); Guimont v. Clarke, 121 Wn.2d 586,
595, 854 P.2d 1 (1993) (takings); City of Des Moines v. Gray Bus.,
LLC, 130 Wn. App. 600, 613-14, 124 P.3d 324 (2005) (takings);
State Farm Fire & Cas. Co. v. English Cove Assocs., 121 Wn. App.
358, 365, 88 P.3d 986 (2004) (insurance contract interpretation).
5

Appendix C-20
right. Pls.’ Resp. Br. at 2-3, 13-15, 17-22, 32, 37-39;
Pls.’ Statement of Additional Auths. at 14-15. 6
Citing Pruneyard Shopping Ctr. v. Robins, 447 U.S. 74, 85, 100
S. Ct. 2035, 64 L. Ed. 2d 741 (1980) (substantial relation); Moore
v. City of East Cleveland, 431 U.S. 494, 498 n.6, 97 S. Ct. 1932,
52 L. Ed. 2d 531 (1977) (plurality opinion) (substantial relation);
Goldblatt, 369 U.S. at 594-95 (unduly oppressive); Wash. ex rel.
Seattle Title Tr. Co. v. Roberge, 278 U.S. 116, 121, 49 S. Ct. 50,
73 L. Ed. 210 (1928) (substantial relation); Nectow, 277 U.S. at
187-88 (substantial relation); Ambler Realty Co., 272 U.S. at 395
(substantial relation); Thomas Cusack Co. v. City of Chicago, 242
U.S. 526,531, 37 S. Ct. 190, 61 L. Ed. 472 (1917) (substantial
relation); Chi., Burlington & Quincy Ry. Co. v. Illinois, 200 U.S.
561, 593, 26 S. Ct. 341, 50 L. Ed. 596 (1906) (substantial
relation); Jacobson v. Massachusetts, 197 U.S. 11, 31, 25 S. Ct.
358, 49 L. Ed. 643 (1905) (substantial relation); Minnesota v.
Barber, 136 U.S. 313, 320, 10 S. Ct. 862, 34 L. Ed. 455 (1890)
(substantial relation); Tiffany Family Tr. Corp., 155 Wn.2d 225
(unduly oppressive); Viking Props., Inc. v. Holm, 155 Wn.2d 112,
118 P.3d 322 (2005) (unduly oppressive); Willoughby v. Dep’t of
Labor & Indus., 147 Wn.2d 725, 733, 57 P.3d 611 (2002) (unduly
oppressive); Asarco, Inc. v. Dep’t of Ecology, 145 Wn.2d 750, 762,
43 P.3d 471 (2002) (unduly oppressive); Christianson v.
Snohomish Health Dist., 133 Wn.2d 647, 661, 672 n.11, 946 P.2d
768 (1997) (unduly oppressive); Sintra, Inc. v. City of Seattle, 131
Wn.2d 640, 935 P.2d 555 (1997) (unduly oppressive); Rivett v.
City of Tacoma, 123 Wn.2d 573, 580-81, 870 P.2d 299 (1994)
(unduly oppressive); Margola Assocs. v. City of Seattle, 121
Wn.2d 625, 649-50, 854 P.2d 23 (1993) (unduly oppressive);
Guimont, 121 Wn.2d at 609 (unduly oppressive); Robinson v. City
of Seattle, 119 Wn.2d 34, 55,830 P.2d 318 (1992) (unduly
oppressive); Presbytery, 114 Wn.2d at 330-31 (unduly
oppressive); Orion Corp., 109 Wn.2d at 646-47 (unduly
oppressive); W. Main Assocs. v. City of Bellevue, 106 Wn.2d 47,
52, 720 P.2d 782 (1986) (unduly oppressive); Cougar Bus. Owners
Ass’n v. State, 97 Wn.2d 466,477,647 P.2d 481 (1982) (unduly
oppressive); State ex rel. Rhodes v. Cook, 72 Wn.2d 436,439,433
P.2d 677 (1967) (“The test when lawful activity upon private
property is involved has been said to be more stringent.”);
Remington Arms Co., 55 Wn.2d at 5 (‘“clear, real, and substantial
6

Appendix C-21
However, as discussed above, both tests are now
interpreted as deferential standards corresponding to
rational basis review. Therefore, the application of
these tests does not indicate that the use of property
is a fundamental right for substantive due process
purposes.
In sum, the “unduly oppressive” test recited in our
precedent can no longer be interpreted as requiring
heightened scrutiny because its legal underpinnings
have disappeared. The plaintiffs also do not show that
laws regulating the use of property must be subject to
heightened scrutiny as a matter of current federal law
or that the use of property is a fundamental right for
substantive due process purposes. Therefore, in
answer to the third certified question, we hold that
rational basis review applies to the plaintiffs’ state
substantive due process challenge to the Fair Chance
Housing Ordinance.
CONCLUSION
Based on the foregoing, we answer the certified
questions as follows: Unless and until this court
recognizes a principled basis for adopting heightened
protections as matter of independent state law, state
substantive due process claims are subject to the same
standards as federal substantive due process claims.
The same is true of state substantive due process
claims involving land use regulations and other laws
regulating the use of property. Therefore, the
connection’” required (quoting 16 C.J.S. Constitutional Law § 195
(1956))); City of Seattle v. Ford, 144 Wash. 107, 111, 115, 257 P.
243 (1927) (holding regulation at issue went “‘beyond what is
necessary’” and was “excessive” (quoting 1 Christopher G.
Tiedeman, State and Federal Control of Persons and Property 5
(1900))).

Appendix C-22
standard applicable to the plaintiffs’ state substantive
due process challenge to the Fair Chance Housing
Ordinance is rational basis review.
s/ YU, J.
WE CONCUR:

s/ WIGGINS, J.

s/ JOHNSON, J.
s/ GONZALEZ, J.
s/ OWENS, J.

s/ GORDON-McCLOUD, J.

APPENDIX
The following is a nonexclusive list of Washington
Supreme Court cases that may no longer be
interpreted as requiring heightened scrutiny in article
I, section 3 substantive due process challenges to laws
regulating the use of property:
Abbey Rd. Grp., LLC v. City of Bonney Lake, 167
Wn.2d 242, 218 P.3d 180 (2009) (plurality opinion)
Allen v. City of Bellingham, 95 Wash. 12, 163 P. 18
(1917)
Amunrud v. Bd. of Appeals, 158 Wn.2d 208, 143 P.3d
571 (2006)
Asarco, Inc. v. Dep’t of Ecology, 145 Wn.2d 750, 43
P.3d 471 (2002)
Biggers v. City of Bainbridge Island, 162 Wn.2d 683,
169 P.3d 14 (2007) (plurality opinion)
Brown v. City of Seattle, 150 Wash. 203, 272 P. 517,
278 P. 1072 (1928)

Appendix C-23
Christianson v. Snohomish Health Dist., 133 Wn.2d
647, 946 P.2d 768 (1997)
City of Olympia v. Mann, 1 Wash. 389, 25 P. 337
(1890)
City of Seattle v. Ford, 144 Wash. 107, 257 P. 243
(1927)
City of Seattle v. Montana, 129 Wn.2d 583, 919 P.2d
1218 (1996) (plurality opinion)
City of Seattle v. Proctor, 183 Wash. 293, 48 P.2d 238
(1935)
City of Seattle v. Ross, 54 Wn.2d 655, 344 P.2d 216
(1959)
City of Spokane v. Latham, 181 Wash. 161, 42 P.2d
427 (1935)
Convention Ctr. Coal. v. City of Seattle, 107 Wn.2d
370, 730 P.2d 636 (1986)
Cougar Bus. Owners Ass’n v. State, 97 Wn.2d 466, 64
7 P .2d 481 (1982)
Covell v. City of Seattle, 127 Wn.2d 874, 905 P.2d 324
(1995)
Crane Towing, Inc. v. Gorton, 89 Wn.2d 161, 570 P.2d
428 (1977)
Duckworth v. City of Bonney Lake, 91 Wn.2d 19, 586
P.2d 860 (1978)
Ellestad v. Swayze, 15 Wn.2d 281, 130 P.2d 349 (1942)
Erickson & Assocs. v. Mclerran, 123 Wn.2d 864, 872
P.2d 1090 (1994)
Guimont v. Clarke, 121 Wn.2d 586, 854 P.2d 1 (1993)

Appendix C-24
Hass v. City of Kirkland, 78 Wn.2d 929, 481 P.2d 9
(1971)
Hauser v. Arness, 44 Wn.2d 358, 267 P.2d 691 (1954)
Homes Unlimited, Inc. v. City of Seattle, 90 Wn.2d
154, 579 P .2d 1331 (1978)
Horney v. Giering, 132 Wash. 555, 231 P. 958 (1925)
Isla Verde Int’l Holdings, Inc. v. City of Camas, 146
Wn.2d 740, 49 P.3d 867 (2002)
Lenci v. City of Seattle, 63 Wn.2d 664, 388 P.2d 926
(1964)
Lutz v. City of Longview, 83 Wn.2d 566, 520 P.2d 1374
(1974)
Manos v. City of Seattle, 173 Wash. 662, 24 P.2d 91
(1933)
Margola Assocs. v. City of Seattle, 121 Wn.2d 625, 854
P.2d 23 (1993)
Markham Advert. Co. v. State, 73 Wn.2d 405, 439 P.2d
248 (1968)
Maytown Sand & Gravel, LLC v. Thurston County,
191 Wn.2d 392, 423 P.3d 223 (2018)
McNaughton v. Boeing, 68 Wn.2d 659, 414 P.2d 778
(1966)
Myrick v. Bd. of Pierce County Comm’rs, 102 Wn.2d
698, 677 P.2d 140, 687 P.2d 1152 (1984)
Orion Corp. v. State, 109 Wn.2d 621, 747 P.2d 1062
(1987)
Patton v. City of Bellingham, 179 Wash. 566, 38 P.2d
364 (1934)

Appendix C-25
Presbytery of Seattle v. King County, 114 Wn.2d 320,
787 P.2d 907 (1990)
Ragan v. City of Seattle, 58 Wn.2d 779, 364 P.2d 916
(1961)
Remington Arms Co. v. Skaggs, 55 Wn.2d 1, 345 P.2d
1085 (1959)
Rivett v. City of Tacoma, 123 Wn.2d 573, 870 P.2d 299
(1994)
Robinson v. City of Seattle, 119 Wn.2d 34, 830 P.2d
318 (1992)
Sintra, Inc. v. City of Seattle, 131 Wn.2d 640, 935 P.2d
555 (1997)
Sintra, Inc. v. City of Seattle, 119 Wn.2d 1, 829 P.2d
765 (1992)
State ex rel. Brislawn v. Meath, 84 Wash. 302, 147 P.
11 (1915)
State ex rel. Faulk v. CSG Job Ctr., 117 Wn.2d 493,
816 P.2d 725 (1991)
State ex rel. Modern Lumber & Millwork Co. v.
MacDuff, 161 Wash. 600, 297 P. 733 (1931)
State ex rel. Rhodes v. Cook, 72 Wn.2d 436, 433 P.2d
677 (1967)
State ex rel. Spokane Int’l Ry. Co. v. Kuykendall, 128
Wash. 88, 222 P. 211 (1924)
State ex rel. Warner v. Hayes Inv. Corp., 13 Wn.2d 306,
125 P.2d 262 (1942)
State v. Bowen & Co., 86 Wash. 23, 149 P. 330 (1915)
State v. Conifer Enters., Inc., 82 Wn.2d 94, 508 P.2d
149 (1973)

Appendix C-26
State v. Fabbri, 98 Wash. 207, 167 P. 133 (1917)
State v. Van Vlack, 101 Wash. 503, 172 P. 563 (1918)
Tiffany Family Tr. Corp. v. City of Kent, 155 Wn.2d
225, 119 P.3d 325 (2005)
Town of Woodway v. Snohomish County, 180 Wn.2d
165, 322 P.3d 1219 (2014)
Valley View Indus. Park v. City of Redmond, 107
Wn.2d 621, 733 P.2d 182 (1987)
Viking Props., Inc. v. Holm, 155 Wn.2d 112, 118 P.3d
322 (2005)
Wash. Kelpers Ass’n v. State, 81 Wn.2d 410, 502 P.2d
1170 (1972)
Weden v. San Juan County, 135 Wn.2d 678, 958 P.2d
273 (1998)
W. Main Assocs. v. City of Bellevue, 106 Wn.2d 47, 720
P.2d 782 (1986)
Willoughby v. Dep’t of Labor & Indus., 147 Wn.2d 725,
57 P.3d 611 (2002)
STEPHENS, J. (concurring in part, dissenting in
part)—I agree with the majority’s answers to the first
two certified questions, but I write separately because
the third certified question does not involve a matter
of state law and is therefore not appropriately before
this court.
“[C]ertified questions should be confined to
uncertain questions of state law.” City of Houston v.
Hill, 482 U.S. 451,471 n.23, 107 S. Ct. 2502, 96 L. Ed.
2d 398 (1987) (citing 17 Charles Alan Wright, Arthur
R. Miller & Edward H. Cooper, Federal Practice and
Procedure § 4248 (1978)). Any federal court may

Appendix C-27
certify a “question of local law” to this court, RCW
2.60.020, but “[t]he decision whether to answer a
certified question . . . is within [our] discretion,” Broad
v. Mannesmann Anlagenbau, AG, 141 Wn.2d 670,
676, 10 P.3d 371 (2000) (citing Hoffman v. Regence
Blue Shield, 140 Wn.2d 121, 128, 991 P.2d 77 (2000);
RAP 16.16(a)). At times, we have “declined to answer
certified questions where . . . any attempt to answer
would be improvident.” United States v. Hoffman, 154
Wn.2d 730, 748, 116 P.3d 999 (2005) (citing Hoffman,
140 Wn.2d at 128).
Here, the district court asks us (1) what standard
of scrutiny generally applies to a substantive due
process claim under the Washington Constitution, (2)
whether that same standard of scrutiny applies to
substantive due process claims involving land use
regulations, and (3) what standard of scrutiny should
be applied to Seattle’s Fair Chance Housing
Ordinance, chapter 14.09 Seattle Municipal Code. See
Order, No. C18-0736-JCC, at 2-3 (W.D. Wash. Feb. 5,
2019). As the majority cogently explains in response
to the first two certified questions, the standard of
scrutiny applicable to substantive due process claims
under the Washington Constitution is identical to the
standard applicable to such claims under the federal
constitution. But then, despite recognizing that “the
parties’ primary dispute [under the third certified
question] is the minimum level of scrutiny required by
the federal due process clauses,” the majority provides
a fairly encompassing analysis of federal substantive
due process precedent and proposes a conclusion
under “current federal law.” Majority at 11-12.
The majority justifies its decision to answer a
question of federal law by claiming “it is necessary to

Appendix C-28
provide complete answers to the certified questions in
this case.” Id. at 11 (citing Broad, 141 Wn.2d at 676).
But “certified questions should be confined to
uncertain questions of state law.” Hill, 482 U.S. at 471
n.23.
There is nothing to be gained by offering the
district court our interpretation of federal law, when
that court must make its own decision and will
undoubtedly consider further arguments from the
parties
about
whether
our
(nonbinding)
interpretation is right or wrong. Moreover, there is no
requirement for us to provide complete—or, indeed,
any—answers to certified questions. See Broad, 141
Wn.2d at 676 (“The decision whether to answer a
certified question pursuant to chapter 2.60 RCW is
within the discretion of the court.” (citing Hoffman,
140 Wn.2d at 128; RAP 16.16(a))). We frequently limit
certified questions, change them, or simply decline to
answer-and that is when state law questions are
presented. We have all the more reason to decline to
answer a question that requires interpretation of
uncertain federal law.
I would decline to answer the third certified
question here and accordingly dissent from that
portion of the majority’s opinion.
s/ Stephens, J., Fairhurst, C.J., Madsen, J.

Appendix D-1

IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
CERTIFICATION FROM THE
UNITED STATES DISTRICT
COURT FOR THE WESTERN
DISTRICT OF WASHINGTON

)
)
)
)
)
CHONG and MARILYN YIM, )
KELLY LYLES, EILEEN, LLC, )
and RENTAL HOUSING
)
ASSOCIATION OF
)
WASHINGTON,
)
Plaintiffs,
)
v.
)
THE CITY OF SEATTLE,
)
Defendant.
)
)

NO. 96817-9

ORDER
AMENDING
OPINION

It is hereby ordered that the majority opinion of
Yu, J., filed November 14, 2019, in the above entitled
case is amended as indicated below.
On page 13, line 18 of the slip opinion, after
“544 U.S. at 542.” delete “It does not reflect the core
concern of substantive due process, which is ‘whether
a regulation of private property is effective in
achieving some legitimate public purpose.’ Id.”
DATED this 9th day of January, 2020.
s/ STEPHENS, C.J.
Chief Justice

Appendix D-2
APPROVED:
s/ JOHNSON, J.

s/ GONZALEZ, J.

s/ OWENS, J.

s/ GORDON-McCLOUD, J.

s/ WIGGINS , J.

s/ YU, J.

Appendix E-1

Seattle Municipal Code 14.08.050 - First-in-time
A. Effective January 1, 2017, it is an unfair practice
for a person to fail to:
1. provide notice to a prospective occupant, in writing
or by posting in the office of the person leasing the unit
or in the building where the unit is physically located
and, if existing, on the website advertising rental of
the unit, in addition to and at the same time as
providing the information required by RCW
59.18.257(1), of:
a. the criteria the owner will use to screen
prospective occupants and the minimum threshold for
each criterion that the potential occupant must meet
to move forward in the application process; including
any different or additional criteria that will be used if
the owner chooses to conduct an individualized
assessment related to criminal records.
b. all information, documentation, and other
submissions necessary for the owner to conduct
screening using the criteria stated in the notice
required in subsection 14.08.050.A.1.a. A rental
application is considered complete when it includes all
the
information,
documentation,
and
other
submissions stated in the notice required in this
subsection 14.08.050.A.1.b. Lack of a material
omission in the application by a prospective occupant
will not render the application incomplete.
c. information explaining how to request additional
time to complete an application to either ensure
meaningful access to the application or a reasonable
accommodation and how fulfilling the request impacts

Appendix E-2
the application receipt date, pursuant to subsection
14.08.050.B and C.
d. the applicability to the available unit of the
exceptions stated in subsections 14.08.050.A.4.a and
b.
2. note the date and time of when the owner receives
a completed rental application, whether submitted
through the mail, electronically, or in person.
3. screen completed rental applications in
chronological order as required in subsection
14.08.050.A.2 to determine whether a prospective
occupant meets all the screening criteria that are
necessary for approval of the application. If, after
conducting the screening, the owner needs more
information than was stated in the notice required in
subsection 14.08.050.A.1.b to determine whether to
approve the application or takes an adverse action as
described in RCW 59.18.257(1)(c) or decides to
conduct an individualized assessment, the application
shall not be rendered incomplete. The owner shall
notify the prospective occupant in writing, by phone,
or in person of what additional information is needed,
and the specified period of time (at least 72 hours) that
the prospective occupant has to provide the additional
information. The owner’s failure to provide the notice
required in this subsection 14.08.050.A.3 does not
affect the prospective occupant’s right to 72 hours to
provide additional information. If the additional
information is provided within the specified period of
time, the original submission date of the completed
application for purposes of determining the
chronological order of receipt will not be affected. If
the information is not provided by the end of the

Appendix E-3
specified period of time, the owner may consider the
application incomplete or reject the application.
4. offer tenancy of the available unit to the first
prospective occupant meeting all the screening
criteria necessary for approval of the application. If
the first approved prospective occupant does not
accept the offer of tenancy for the available unit
within 48 hours of when the offer is made, the owner
shall review the next completed rental application in
chronological order until a prospective occupant
accepts the owner’s offer of tenancy. This subsection
14.08.050.A.4 does not apply when the owner:
a. is legally obligated to set aside the available unit
to serve specific vulnerable populations;
b. voluntarily agrees to set aside the available unit
to serve specific vulnerable populations, including but
not limited to homeless persons, survivors of domestic
violence, persons with low income, and persons
referred to the owner by non-profit organizations or
social service agencies.
B. If a prospective occupant requires additional time
to submit a complete rental application because of the
need to ensure meaningful access to the application or
for a reasonable accommodation, the prospective
occupant must make a request to the owner. The
owner shall document the date and time of the request
and it will serve as the date and time of receipt for
purposes of determining the chronological order of
receipt pursuant to subsection 14.08.050.A.2. The
owner shall not unreasonably deny a request for
additional time. If the request for additional time is
denied, the date and time of receipt of the complete
application shall serve as the date and time of receipt

Appendix E-4
pursuant to subsection 14.08.050.A.2. This subsection
14.08.050.B does not diminish or otherwise affect any
duty of an owner under local, state, or federal law to
grant a reasonable accommodation to an individual
with a disability.
C. To maintain the prospective occupant’s
chronological position noted at the time of notice, the
owner may require that the prospective occupant
provide reasonable documentation of the need for
additional time to ensure meaningful access along
with the completed application. The owner must
notify the prospective occupant at the time the owner
grants any request for additional time if the owner
will require submission of reasonable documentation.
If such notice is given and reasonable documentation
is not provided with the completed application, the
owner may change the date and time of receipt from
when the request was made to the date and time the
complete application is submitted. This subsection
14.08.050.C applies only to requests for additional
time based on the need to ensure meaningful access to
the application. It does not apply to requests for
reasonable accommodation.
D. First-in-time evaluation
The Department shall ask the City Auditor to conduct
an evaluation of the impact of the program described
in subsections 14.08.050.A-C to determine if the
program should be maintained, amended, or repealed.
The evaluation shall only be conducted on the basis of
the program’s impacts after 18 months of
implementation. The evaluation should include an
analysis of the impact on discrimination based on a
protected class and impact on the ability of lowincome persons and persons with limited English

Appendix E-5
proficiency to obtain housing. The City Auditor, at
their discretion, may retain an independent, outside
party to conduct the evaluation. The evaluation shall
be submitted to the City Council by the end of 2018.
E. Persons must comply with this Section 14.08.050
by July 1, 2017.
F. Nothing in this Section 14.08.050 shall apply to an
accessory dwelling unit or detached accessory
dwelling unit wherein the owner or person entitled to
possession thereof maintains a permanent residence,
home or abode on the same lot.
(Ord. 125228, § 1, 2016; Ord. 125114, § 5, 2016.)

Appendix F-1

Seattle Municipal Code Chapter 14.09 - Use of
Criminal Records in Housing (in relevant part)
*****
14.09.005 - Short title
This Chapter 14.09 shall constitute the “Fair Chance
Housing Ordinance” and may be cited as such.
(Ord. 125393, § 2, 2017.)
*****
14.09.025 - Prohibited use of criminal history
A.

It is an unfair practice for any person to:
1. Advertise, publicize, or implement any policy
or practice that automatically or categorically
excludes all individuals with any arrest
record, conviction record, or criminal history
from any rental housing that is located within
the City.
2.

Require disclosure, inquire about, or take an
adverse action against a prospective occupant,
a tenant, or a member of their household,
based on any arrest record, conviction record,
or criminal history, except for information
pursuant to subsection 14.09.025.A.3 and
subject to the exclusions and legal
requirements in Section 14.09.115.

3.

Carry out an adverse action based on registry
information of a prospective adult occupant,
an adult tenant, or an adult member of their
household, unless the landlord has a

Appendix F-2
legitimate business reason for taking such
action.
4.

Carry out an adverse action based on registry
information regarding any prospective
juvenile occupant, a juvenile tenant, or
juvenile member of their household.

5.

Carry out an adverse action based on registry
information regarding a prospective adult
occupant, an adult tenant, or an adult
member of their household if the conviction
occurred when the individual was a juvenile.

B.

If a landlord takes an adverse action based on a
legitimate business reason, the landlord shall
provide written notice by email, mail, or in person
of the adverse action to the prospective occupant
or the tenant and state the specific registry
information that was the basis for the adverse
action.

C.

If a consumer report is used by a landlord as part
of the screening process, the landlord must
provide the name and address of the consumer
reporting agency and the prospective occupant’s
or tenant’s rights to obtain a free copy of the
consumer report in the event of a denial or other
adverse action, and to dispute the accuracy of
information appearing in the consumer report.

(Ord. 125515 , § 2, 2018; Ord. 125393 , § 2, 2017.)
*****

Appendix G-1
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON FOR KING COUNTY
CHONG and
MARILYN YIM,
KELLY LYLES, BETH
BYLUND, CNA
APARTMENTS, LLC,
and EILEEN, LLC,

No. 17-2-05595-6 SEA
STIPULATED FACTS
AND RECORD

Plaintiffs,
v.
THE CITY OF
SEATTLE, a
Washington Municipal
corporation,
Defendant.
A. Agreement.
For purposes of forthcoming cross motions for
summary judgment, the parties stipulate to the
following facts and will limit themselves to these facts
and the attached documents unless the parties agree
to additional facts or documents.
The stipulated facts and attached documents are
numbered consecutively. The parties may cite the
stipulated facts by paragraph number (using “SF” for
“stipulated fact”) and the attached documents by page
number (using “R” for “stipulated record”). A blank
page separates each document.

Appendix G-2
Although Defendant City of Seattle (“City”) is
unable to confirm the facts regarding individual
plaintiffs (F 1-5), the City stipulates to those facts for
purposes of the cross motions for summary judgment.
The City also agrees Plaintiffs have established
standing to maintain this action.
Nothing in this stipulation precludes either party
from: characterizing the attached documents or
relying on facts the documents support; citing
published material, such as articles in periodicals or
papers posted online; asking the court to take judicial
notice of adjudicative facts under ER 201; or arguing
that certain stipulated facts are immaterial to this
dispute.
B. Agreed Facts and Record.
Plaintiffs and their interests in this dispute.
1. Chong and MariLyn Yim own a duplex and a
triplex in Seattle. They and their three children live
in one of the triplex units. They rent out the duplex
and the other two units in the triplex. Several of their
rented units are shared by roommates. The Yims
share a yard with their renters, and the Yim children
are occasionally at home alone when their renters are
in the building.
2. Kelly Lyles is a single woman who owns and
rents a home in West Seattle. Ms. Lyles is a local
artist who relies on her rental for most of her income.
3. CNA Apartments, LLC, is owned by Thomas,
John, George, and Penelope Benis for college
investment. The LLC manages a six-unit apartment
building in Seattle. The three Benis children use the
rental income they receive from their ownership

Appendix G-3
interests in the LLC as their college fund. The
children each have a twenty-percent ownership
interest in the LLC. Their father, Chris Benis, acts as
the LLC’s manager, and their mother owns the
remaining forty-percent interest.
4. Scott Davis and his wife own and manage
Eileen, LLC, through which they operate a seven-unit
residential complex in the Greenlake area of Seattle.
Currently, the Davises rent a unit to two young men
from separate minority groups. They have lived in the
unit over three years, but they would not satisfy the
Davises’ current screening requirements that tenants
possess prior rental history and a solid credit history.
Because both young men were recent graduates, they
possessed no such history. The Davises liked them
because they were polite, took off their shoes when
they viewed the apartment, and seemed excited to live
there. The Davises decided to rent to them even
though the pair did not satisfy their typical rental
criteria.
5. Beth Bylund owns and rents out two singlefamily homes in Seattle. Ms. Bylund hesitates to raise
rents along with the market because she fears losing
her current tenants and being forced to offer tenancy
to the first prospective occupant meeting all of her
screening criteria even if Ms. Bylund would prefer to
offer tenancy to a different applicant meeting all of
her criteria.
Activity before the relevant legislation.
6. On February 20, 2014, the Seattle Office of Civil
Rights (“SOCR”) entered a Consultant Agreement
with Fair Housing Center of Washington to conduct
fair housing testing in Seattle. SR 000001-13.

Appendix G-4
7. At some later point, SOCR posted “Frequently
Asked Questions” on its web page discussing the 2014
fair housing testing. SR 000014-18.
8. On November 2, 2015, SOCR entered a
Consultant Agreement with Northwest Fair Housing
Alliance to conduct fair housing testing in Seattle. SR
000019-29.
9. On May 2, 2016, SOCR announced it had filed
23 Director’s charges of illegal discrimination against
landlords based on its 2015 fair housing testing. SR
000030-31.
Ordinance 125114: adding the “first in time”
provisions of SMC 14.08.050.
10. On April 19, 2016, the Mayor transmitted
legislation to the City Council, which was ultimately
assigned Council Bill Number (“CB”) 118686. SR
000032-61. CB 118686 did not propose to add Seattle
Municipal Code Section (“MC”) 14.08.050, which
contains the “first in time” provisions at issue in this
dispute.
11. On May 23, 2016, the Council referred CB
118686 to the Civil Rights, Utilities, Economic
Development, and Arts Committee (“CRUEDA”) for
review. See SR 000032.
12. On or about June 14, 2016, Council Central
staff submitted a memo to CRUEDA that, among
other things, discussed a potential amendment to add
“first in time” provisions. SR 000062-87. (memo and
Attachment A; the other attachments are not
germane to this dispute).
13. In July 2016, Columbia Legal Services and the
Tenants Union of Washington submitted a memo to

Appendix G-5
staff for Council Member (“CM”) Lisa Herbold, the
bill’s sponsor, commenting on proposed “first in time”
amendments. SR 000088-93.
14. On or about July 20, 2016 Council Central staff
submitted a memo updating CRUEDA on the “first in
time” and other provisions. SR 000094-104. (omitting
attachment B, the June 14, 2016 Central Staff memo
to CRUEDA already included at R 000062-87).
15. On July 22, 2016, CRUEDA passed an
amended version of CB 118686 that would add SMC
14.08.050 and its “first in time” provisions to City law.
See SR 000032 and SR 000105-128.
16. On July 27, 2016, the City Clerk transmitted
that amended version to the Council President as a
new bill (CB 118755). SR 000129-134. The Clerk
changed the bill number because CRUEDA’s
amendments changed the bill’s title. See SR 000135141. (omitting Attachments A and B, which are
included as separate SR documents)
17. On or about August 1, 2016, Council Central
staff submitted a memo to the Council explaining: the
main changes the Office of Civil Rights proposed to
the original bill; CRUEDA’s amendments; and
changes made to the “first in time” policy before
introduction of CB 118755. Id.
18. On August 8, 2016 the Council voted to make
several amendments to CB 118755 and passed the
amended version of the bill. See SR 000129-134.
19. On August 12, 2016, CM Herbold posted an
entry on her web page about the new legislation. SR
000142-147. Among other things, that entry stated:
“The research shows that even within jurisdictions

Appendix G-6
with strong anti-discrimination laws, it is very
important to find ways to address the role of implicit
biases in order to reduce discrimination.” That
sentence contained a link to a 2015 report from the
Kirwan Institute for the Study of Race and Ethnicity
entitled “Implicit Bias.” SR 000148-238. The entry
also provided links to other documents, including ones
by Washington Citizen Action Network, Washington
Rental Housing Association, and Washington
Multifamily Housing Association. SR 000239-276.
20. On August 17, 2016, the Mayor signed the bill,
which became Ordinance 125114. SR 000277-301.
That ordinance added SMC 14.08.050 and its “first in
time” provisions to City law.
Ordinance 125228: amending and delaying
enforcement of SMC 14.08.050.
21. On December 16, 2016, the Council passed CB
118881, which the Mayor signed on December 21,
2016, and became Ordinance 125228. SR 000302-307.
That legislation delayed enforcement of the new “first
in time’ provisions until July 1, 2017, and exempted
certain accessory dwelling units from the provisions.
Id.
Agreed to November 28 , 2017.
PETER S. HOLMES
Seattle City Attorney
By: s/Sara O Connor-Kriss, WSBA #41569
By: s/Roger D. Wynne, WSBA #23399
Seattle City Attorney’s Office
701 Fifth Ave., Suite 2050
Seattle, WA 98104-7097

Appendix G-7
Ph: (206) 615-0788
Ph: (206) 233-2177
Sara. OConnor-Kriss@seattle.gov
Roger.Wynne@seattle.gov
Attorneys for Defendant City of Seattle
s/Ethan W. Blevins, WSBA #48219
Pacific Legal Foundation
10940 NE 33rd Place, Suite 210
Bellevue, WA 98004
Ph: (425) 576-0484
EBlevins@pacificlegal.org
Attorney for Plaintiffs Yim, et al.

